<html>
<title> - BOMAR NOMINATION</title>
<body><pre>[Senate Hearing 109-776]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-776
 
                            BOMAR NOMINATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON

THE NOMINATION OF MARY AMELIA BOMAR TO BE DIRECTOR OF THE NATIONAL PARK 
                                SERVICE

                               __________

                           SEPTEMBER 21, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
32-609                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                   Frank Macchiarola, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     4
Bomar, Mary Amelia, Nominee to be Director of the National Park 
  Service, Department of the Interior............................     7
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Salazar, Hon. Ken, U.S. Senator from Colorado....................     4
Santorum, Hon. Rick, U.S. Senator from Pennsylvania..............     3
Specter, Hon. Arlen, U.S. Senator from Pennsylvania..............     1
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     4

                                APPENDIX

Responses to additional questions................................    21


                            BOMAR NOMINATION

                              ----------                              


                      THURSDAY, SEPTEMBER 21, 2006

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Pete V. 
Domenici, chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. Please come to order.
    We are, today, here for the purpose of considering the 
nomination of Mary Bomar to be the Director of the National 
Park Service.
    Ms. Bomar, welcome to the committee, and congratulations on 
your nomination to this important position within the 
Department of the Interior.
    I note that you have had extensive experience in a variety 
of positions within the Park Service, and so, I know that you 
are acutely aware of the magnitude of work and the 
responsibility that you agree to when you undertake this job. 
And thank you for agreeing to assume such a demanding position, 
one that is extremely important to every member of this 
committee.
    And I understand that you have a family present today, and 
that they are extremely pleased and proud that you have been 
asked to do this work and that you have assumed this mantle. 
You may introduce them now, if you would like to do so.
    Ms. Bomar. Thank you, Mr. Chairman.
    This is my husband, Milton Bomar.
    The Chairman. Yes, sir.
    Ms. Bomar. And our daughter, Donna Cook.
    Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you very much. Welcome to all of you.
    Before we begin this testimony, Ms. Bomar, our colleagues, 
Senators Specter and Santorum, have indicated a desire to speak 
in your behalf, and they may do so now.

         STATEMENT OF HON. ARLEN SPECTER, U.S. SENATOR 
                       FROM PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman.
    I'm delighted to join my distinguished colleague Senator 
Santorum in our enthusiastic support for Ms. Bomar's 
nomination. I shall be brief, because I had to leave the 
Judiciary Committee, where we're trying to vote out circuit 
judges, and ask unanimous consent that my full statement be 
made a part of the record.
    The Chairman. It will be made a part of the record.
    Senator Specter. I have gotten to know Mrs. Bomar very well 
as a result of her work for the National Park System for the 
Northeast Region, headquartered in Philadelphia, and she is a 
woman of outstanding ability and equally pleasant personality. 
She is a native of Leicester, England, and has an intriguing 
British accent. And somehow with those dulcet tones and that 
interesting accent, what she has to say has extra force.
    When I walked in, today, I saw she was out of uniform. She 
has a very smart uniform. She looks right out of central 
casting in Hollywood----
    [Laughter.]
    Senator Specter [continuing]. And she carries, with that, 
enormous talent.
    She has had quite a number of very important positions. She 
became a citizen in 1977, was in the Air Force for 12 years, 
and my full statement will show her extensive work in the Park 
Service.
    I believe that President Bush has made an outstanding 
selection in Mary Bomar, and I am very confident she will do an 
outstanding job. She has wrestled with one of the toughest 
problems that I have seen, and that is the issue of a fence 
around Independence Hall. And there are many of us who do not 
believe that that is necessary for security reasons, although 
we defer to the experts, but Mrs. Bomar has agreed to take 
another look to make Independence Hall accessible to the 
public. The Constitution was signed there on September 17, 
1787. The Declaration of Independence was written a block away. 
We have plaques on the sidewalk outside of Independence Hall, 
where Abraham Lincoln stood in 1863, when John Kennedy stood in 
1962, and where Senator Santorum and I stand very, very 
frequently.
    Mr. Chairman, thank you for accommodating my request to 
speak early. And I have already told Senator Santorum that this 
is one speech of his I'm going to have to miss.
    [Laughter.]
    Senator Specter. If I may be excused.
    [The prepared statement of Senator Specter follows:]

      Prepared Statement of Hon. Arlen Specter, U.S. Senator From 
                              Pennsylvania

    Mr. Chairman, I am pleased today to introduce Mary Bomar, Northeast 
Regional Director of the National Park Service as President Bush's 
nominee to serve as the 17th Director of the National Park Service. I 
have had the pleasure of personally working with Mrs. Bomar on a number 
of issues relating to national parks in Pennsylvania, and know her to 
be a strong advocate for their preservation. Mrs. Bomar demonstrates an 
unparalleled ability to open lines of communications between diverse 
interest groups and to find creative approaches to meeting the needs of 
visitors, communities, business, city, state and the resources 
entrusted to her care.
    Mrs. Bomar's leadership in the park management of the 
reconstruction of Independence Mall is a strong example of her 
excellent leadership skills and dedication to collaboration. The 
Independence Mall revitalization required a dynamic modem public space 
be created to engage Americans from all walks of life in a way that 
ensured a compatible fit with the buildings and grounds that comprise 
the park's historic core. During her two and a half years as 
Superintendent of Independence National Historic Park, Mrs. Bomar 
reached out to and worked with the City of Philadelphia, the 
Commonwealth of Pennsylvania, The Pew Charitable Trusts, the Annenberg 
Foundation and others to plan the transformation of Independence Mall 
into a truly spectacular gateway to our nation's birthplace.
    When the Park Service is faced with sensitive issues, I am 
confident that Mrs. Bomar will listen and explore solutions built on 
consensus while not compromising the mission of the National Park 
Service. She is extremely inclusive in her dealings with communities 
and her willingness to take on tough issues utilizing a cooperative 
approach would be an outstanding example for other federal managers. In 
my experiences with Mrs. Bomar, she has exhibited her commitment to 
sound business practices, civic engagement and working with Congress.
    By way of background, Mrs. Bomar was raised in Leicester, England 
and became a United States citizen in 1977. She joined the National 
Park Service in 1990 after spending twelve years in the United States 
Air Force. She began her Park Service career in Texas as Chief of 
Administration at Amistad National Recreation Area, then as a manager 
at San Antonio Missions National Historic Park. Mrs. Bomar served as 
Acting Superintendent of Rocky Mountain National Park in Colorado 
before moving to Oklahoma to initiate start-up Park Service operations 
at the Oklahoma City National Memorial. While in Oklahoma, she also 
became the State Coordinator for the National Park Service.
    Mrs. Bomar is above all, an honest, intelligent, skilled 
professional. I look forward to continuing an outstanding working 
relationship with Mrs. Bomar as the Director of the National Park 
Service, and encourage the Committee to speedily recommend her approval 
to the full Senate.

    The Chairman. Thank you very much, Senator Specter.
    Now, Senator Santorum, would you care to testify before the 
committee? If so, please proceed.

         STATEMENT OF HON. RICK SANTORUM, U.S. SENATOR 
                       FROM PENNSYLVANIA

    Senator Santorum. Thank you, Mr. Chairman.
    I am very honored to be here to introduce Mary Bomar to the 
committee. And, while, as you hear, she is not a native of 
Pennsylvania, she has spent a great deal of time, over the last 
several years, in Pennsylvania. And I got to know her first 
when she came to Pennsylvania to run the Independence National 
Park in Philadelphia.
    When she came there, I will tell you that the relationships 
between the Park Service and the city and the State and those 
of us on the Federal delegation was anything but positive. It 
was a very difficult time. There were lots of issues that were 
in play, everything from interpretive activities at the Park 
Service to the building of a new National Constitution Center, 
which everyone in Pennsylvania and the city wanted to do, but 
the Park Service was, let's just put it this way, less than 
cooperative. And she came there under, again, the most 
difficult circumstances, and just did an outstanding job in 
calmly, methodically working through the process, making sure 
that all voices were heard--not, certainly, giving everybody 
everything they wanted, but doing it the right way, and, more 
importantly, doing it, as opposed to just making excuses why 
you can't do it. And that impressed me more than anything else, 
that this is someone who wants to find solutions to problems 
instead of finding more problems to problems.
    And so, I can tell you, from my experience with her, she 
has been just an outstanding public servant, really--as Senator 
Specter said, really out of central casting, but not because of 
how she looks, although I'm not--she looks great----
    [Laughter.]
    Senator Santorum [continuing]. But because of what she 
does. And so, I'm excited to be here. She has continued to work 
as a regional director, again, on a variety of different 
issues.
    Again, another problem area, Valley Forge National Military 
Park, they're--we are in the process of trying to build a 
Center for the American Revolution. There is no museum 
dedicated to the American Revolution, the entire Revolution. We 
want to do a national museum at Valley Forge. Again, instead of 
looking for ways, as some here in Washington and other places 
are looking for ways not to get this done, she has been 
terrific in working with us to provide a truly world-class, 
first-class interpretive experience at Valley Forge for the 
remembrance of, obviously, one of the most significant events 
in this country's history.
    So, my hat is off to her. I was honored--and I mean that--
to be here to introduce her, and to enthusiastically recommend 
her to the committee.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Now, are there any other Senators who want to make opening 
remarks?
    Would you please take your seat.

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Bingaman. Mr. Chairman, let me just say, very 
briefly, that I also welcome Ms. Bomar and have heard great 
things about her career, her civil service career as a Park 
Service employee, and congratulate her on this nomination, and 
look forward to supporting her.
    The Chairman. Thank you very much, Senator.
    Any other Senators desire to make opening remarks?
    Senator Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Just very briefly. I just want to welcome 
Mary to the committee. We have met, and I'm very pleased that 
she's interested in taking this job. Wyoming, of course, is a 
very proud park State. We have the first park, in Yellowstone, 
and I'm flying home this weekend to celebrate the centennial of 
the first monument, Devil's Tower.
    So, I just have a very vested interest in this, and look 
forward to working with you. We have 390 units now. It's very 
difficult to keep track of all these things. But, certainly, 
we'll be working together, and we look forward to receiving 
your testimony.
    Thank you.
    Ms. Bomar. Thank you very much, Senator Thomas.
    The Chairman. Thank you very much, Senator.
    Senator Salazar, would you care to make any remarks, 
please?

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Chairman Domenici and 
Ranking Member Bingaman.
    I have a full statement for the record that I will submit, 
but I want to just, this morning, say to you, Mary, I very much 
enjoyed meeting with you. I look forward to working with you on 
the National Park System issues, especially with regard to the 
maintenance and backlog issues, the visitor centers. And, in my 
State, as I'm sure all of us do, we have our own parochial 
interests, such as making the Rocky Mountain National Park into 
a wilderness area, and looking at some of the other 
opportunities that we have within the State will be a high 
priority of mine. I look forward to working with you. I look 
forward to also supporting you on this vote.
    [The prepared statement of Senator Salazar follows:]
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado
    Thank you Mr. Chairman and Ranking Member Bingaman. Welcome, Mary 
Bomar. Congratulations on your nomination.
    I was pleased to meet with you the other day and to hear about your 
experiences as the Acting Superintendent of Rocky Mountain National 
Park. We in Colorado are very proud of our 12 National Park units and I 
am delighted that you have spent time among them.
    Your nomination to be the director of the National Park Service 
comes at a watershed moment for our Parks. Just a few weeks ago, the 
Park Service finalized its new management policies, which, I believe, 
reinforce and clarify the Park Service's mandate to conserve and 
protect our nation's crown jewels. The final draft emerged after a 
difficult and often contentious process, in which this Committee, Park 
enthusiasts, employees, and the public voiced their strong support for 
preserving the Park Service's bedrock principle of conservation. I 
appreciate Secretary Kempthorne's leadership in finalizing a draft of 
the management policies that will serve us well for years to come.
    Your nomination also coincides with Secretary Kempthorne's 
announcement of an ambitious plan for the Park Service for the next 
decade. In August, on the Park Service's 90th anniversary, Secretary 
Kempthorne laid out a vision for how we will prepare the Park system 
for its 100 anniversary in 2016. The National Park Centennial 
Challenge, as he called it, is an opportunity to polish the gems of our 
public lands--it is a chance to recommit ourselves to the mandate of 
the Organic Act, a chance to make new investments in our Parks, and a 
chance to find creative solutions to the challenges facing these 
beloved national treasures. I applaud Secretary Kempthorne's lofty 
vision. We can and must rise to the challenge that he has set before 
us.
    With a strong set of management policies, Secretary Kempthorne's 
Centennial Challenge, and an extraordinary team of dedicated employees, 
the new director will be well-positioned to confront the challenges 
facing the Park Service.
    First among these challenges is the growing maintenance backlog at 
our Parks--the current estimate places the backlog at somewhere between 
$4.5 and $9.7 billion. In 2000, the President, pledged to provide 
enough funding for the Parks to eliminate the maintenance backlog. The 
backlog has only grown since that pledge.
    Second, budget cuts have forced reductions in visitor services. You 
note in your testimony that our Parks are places where people come to 
learn--they are our universities. We need to find ways to restore our 
commitment to education at the Parks--visitor services have suffered 
from the budget cuts of recent years.
    Third, each region and each unit of the Park Service faces its own 
set of challenges. In some places, diminished air quality is clouding 
views and hurting ecosystems. In other places, security and law 
enforcement are growing concerns. I would hope that you would continue 
to empower your superintendents and employees to find innovative, 
locally-driven and supported solutions that fit the needs of a Park.
    Finally, I would like to ask for your support for my Rocky Mountain 
National Park Wilderness Act. For forty years, Rocky Mountain National 
Park has been managed as wilderness, but Congress has not yet 
officially designated it as wilderness. My bill, which enjoys the 
unanimous support of the local communities and has the backing of the 
National Park Service, would ensure the permanent protection of Rocky's 
wild character. I would ask for the continued assistance of your agency 
in completing the long-overdue task of designating this wilderness.
    I look forward to discussing these issues today with you, Ms. 
Bomar. Again, congratulations on your nomination.
    Thank you, Mr. Chairman.

    Ms. Bomar. Thank you, Senator Salazar. Thank you for your 
kindness shown to me in our visit the other day. I appreciate 
it. Thank you.
    The Chairman. Now, Madam, it's always a special privilege 
for this committee to see to it that this position is given 
adequate consideration by the members. We take a particular 
pride in concurring with the President in a nomination of a 
park director, and we will do that today, as we have in the 
past. We all share the pleasure and the pride of you moving up 
to this position from within, and we know that that makes you a 
special person, who will take this job with a special meaning 
and a special emphasis on its historic significance for all 
Americans.
    With that, we will begin. The rules of the committee, which 
apply to all nominees, not just you, require that you be sworn 
in, in connection with their testimony.
    Please rise, ma'am, and raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Ms. Bomar. I do.
    The Chairman. Please be seated.
    Ms. Bomar. Thank you.
    The Chairman. Before you begin your statement, I will ask 
you three questions that are addressed to each nominee before 
they proceed any further.
    Will you be available to appear before the committee and 
other congressional committees to represent Department 
positions and respond to issues of concern to the Congress?
    Ms. Bomar. I will.
    The Chairman. Are you aware of any personal holdings, 
investments, or interests that could constitute a conflict or 
create the appearance of such a conflict, should you be 
confirmed and assume the office to which you have been 
nominated by the President?
    Ms. Bomar. Mr. Chairman, my investments, personal holdings, 
and other interests have been reviewed both by myself and the 
appropriate ethics counselors within the Federal Government. I 
have taken appropriate action to avoid any conflicts of 
interest. There are no conflicts of interest, or appearances 
thereof, to my knowledge.
    The Chairman. Are you involved or do you have any assets 
held in blind trust?
    Ms. Bomar. No, sir.
    The Chairman. Now, we're going to proceed now to your 
statement. I encourage you to summarize your formal statement, 
as the full text of it will be included in the record. At the 
conclusion of your statement, we will have questions from 
Senators.
    Senators will please note that you may submit additional 
questions for the record until 5 p.m. today. So, I encourage 
that you, also, keep your oral questions brief.
    Please proceed, ma'am.

         TESTIMONY OF MARY AMELIA BOMAR, NOMINEE TO BE 
   DIRECTOR OF THE NATIONAL PARK SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Bomar. Thank you, Mr. Chairman. And I will do the same.
    Mr. Chairman, thank you for holding this hearing today on 
my nomination to be the 17th Director of the National Park 
Service. Words cannot express my feelings of joy, excitement, 
and honor in being nominated by the President for this post.
    To be entrusted with the care of the crown jewels of 
America, our national parks, is the ultimate honor for me as a 
career public servant. I thank the President and Secretary 
Kempthorne for the confidence they have demonstrated in me 
through this nomination.
    If I may, Mr. Chairman, I would like to enter my entire 
statement in the record and summarize my remarks.
    While I grew up as a city gal in Leicester, England, I had 
the good fortune to live for a while in the United States and 
to travel to national parks. It was during those travels that I 
was awed by the grand landscapes and the historic sites that 
capture so much of America's greatness. I became a U.S. citizen 
in 1977, and I proudly call myself an American, by choice.
    In many respects, the position of the National Park Service 
Director is something for which I have trained my entire life, 
beginning with my childhood as part of a family that ran a 
family business and instilled in us an appreciation also for 
America's special places. Then my husband and three children, 
living on U.S. Air Force bases and working as a civilian 
employee for the United States Air Force, where I managed large 
morale and welfare and recreation programs, both in the United 
States and in Europe.
    Having risen to the position of regional director in the 
National Park Service, I credit my success to my passion for 
the national parks, my business skills and willingness to 
become involved, my ability to be decisive, and to many great 
leaders who have mentored me along the way, and some that are 
here today. Most of that training occurred in the 12 years that 
I spent in the intermountain region in the western area and in 
the old Santa Fe area, prior to my 4 years that I have spent 
here on the East Coast.
    While the mission of the National Park Service remains the 
same, as it has been since the service's inception in 1916, the 
way we go about achieving that mission has evolved greatly as 
we near our centennial in 2016. New challenges and 
opportunities abound.
    On the 90th anniversary of the National Park Service, at 
the direction of President Bush, Secretary Kempthorne announced 
a 10-year National Park Centennial Challenge to help guide the 
service through another century as the world's leading 
conservation, preservation, and visitor enjoyment agency. The 
Centennial Challenge will propel us, as an agency, into a new 
era distinguished by sound government, citizen and 
philanthropic partnerships that create a better park experience 
for all visitors and raise the conservation bar for generations 
yet to come. I look forward to working with each of you to meet 
this challenge.
    While park superintendents and program managers are vested 
with much authority, it comes with an equal amount of 
responsibility that demands high-quality results, stellar 
performance, and the utmost levels of accountability. Our 
mission requires constant re-examination to assure that we 
fulfill park mandates and respond to the changes in the world 
and in our visitors.
    In a work force that comprises civil servants, volunteers, 
contractors, and partners, the successful leader must have the 
skills to personally embrace, change, and to foster a climate 
that encourages others to do the same.
    I pledge to you, if confirmed, I will be a leader who 
demonstrates high ethical standards and promotes transparency 
in all our activities. I will ensure that we apply scholarly, 
scientific, and technical information in all our decisionmaking 
processes. I will continue to put into place a highly-
qualified, diverse work force that reflects, truly, the face of 
America and possesses the management excellence, creativity, 
and innovation skills necessary to lead the National Park 
Service in the future.
    I will work to foster for parks among the public that a 
strong--that is, have them strong and proudly wear the uniform, 
as we do. I will endeavor to find new ways of ensuring that 
sustainable processes are in place to care for our resources 
and to improve services to the public, and to search for 
creative ways of working within our means. We must listen to 
the American people to ensure we consider the impacts of our 
decisions on those who live here now and those of future 
generations.
    I work with some of the finest public servants in any 
government agency today. They are passionate about their work 
to protect our Nation's great places and welcome the public to 
them. I would be proud, if confirmed, to lead the National Park 
Service into a bright future ahead.
    Thank you all, sincerely, for the opportunity to be here 
today. I look forward to any questions that you may have.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Bomar follows:]

  Prepared Statement of Mary A. Bomar, Nominee to be Director of the 
           National park Service, Department of the Interior

    Mr. Chairman, Senator Bingaman, and distinguished Members of the 
Committee: Words cannot begin to express my feelings of joy, 
excitement, and honor in being nominated by the President of the United 
States to become the 17th Director of the National Park Service. To be 
entrusted with the care of the ``crown jewels of America,'' our 
national parks, is the ultimate honor for me as a career public 
servant. I thank the President and Secretary Kempthorne for the 
confidence they have demonstrated in me through this nomination.
    As you well know from your own visits to national parks, you can 
never meet a park ranger without hearing a story . . . and mine begins 
as a very young girl.
    I am a city gal. My family owned a large manufacturing company in 
Leicester, England. I was very fortunate to be raised by wonderful 
parents, with four brothers and one sister. From our very earliest 
days, we learned the importance of cash flow, the value of the bottom 
line, and the need for the highest degree of integrity combined with a 
strong work ethic to truly be successful in life's journey.
    I lived in the United States for some time as a child--New York, 
Chicago, and California. I was fortunate to have a father who loved to 
travel. We would pack up the station wagon for vacations to the Grand 
Canyon, Petrified Forest, Golden Gate, Mount Rushmore, and many other 
parks. While living in Chicago, we traveled the ``Mother Road of 
America,'' Route 66, all the way to California. An incredible memory 
forever etched upon my mind is sailing into New York Harbor on the 
liner Ile de France and seeing the Statue of Liberty--the lady rising 
from the water. Little did I know that one day I would have a role in 
her care. What an awesome responsibility!
    Journeys such as these provided me with an education that no school 
could have. Seeing and experiencing firsthand America's vast and 
magnificent scenery, and its premier historic and cultural sites, 
instilled a lifelong passion for the importance of preserving these 
special places. I believe the National Park System is truly the world's 
largest university.
    I am proud to call myself ``an American by choice.'' I took the 
Oath of Allegiance to the Constitution of the United States on October 
28, 1977, in Spokane, Washington. It was a very proud moment for me and 
my family. I was given a letter from then President Jimmy Carter which 
stated that my citizenship gave me the right and also the 
responsibility to take part in the business of our Government.
    In many respects, the position of National Park Service Director is 
something for which I have trained my entire life: first, as part of a 
family whose economic well-being depended on the success of our 
business and which instilled in me a passion for America's special 
places; then, as I met my own ``man from Missouri,'' a handsome young 
man in the U.S. Air Force, who would become my husband of forty plus 
years. We raised three lovely children while living on U.S. military 
bases around the country and the world: Biloxi, Mississippi, for three 
years; Spokane, Washington, for four years; Alpena, Michigan, for three 
years; Phoenix, Arizona, for four years; as well as bases in Europe. As 
a civilian employee for the U.S. Air Force, I managed large Morale, 
Welfare, and Recreation (MWR) programs in both Europe and the United 
States. As a result of my leadership skills, one center I managed was 
designated as the Air Force European MWR managerial training center. 
Dependent on nonappropriated funds, satisfied customers were vital to 
support the MWR facilities and programs. As a head trainer and roving 
staff assister for the Air Force in the MWR arena, I knew how to spot 
management problems and fix them quickly. My business acumen and 
willingness to address issues earned me an Air Force Manager of the 
Year Award, a Meritorious Service Award, and other performance awards.
    The management skills I developed in my work for the Air Force are 
applicable in my work for the National Park Service, where it has been 
an honor and privilege to work the past 16 years. Almost all of my 
National Park Service tenure has been in the field, including 
assignments as an Administrative Officer, Circuit Rider/Staff Assister, 
Management Assistant, Deputy Superintendent, Superintendent, State 
Coordinator; and presently I am the Director of the Northeast Region.
    I credit my success to my passion for these very special places--
the national parks; my business skills and willingness to become 
involved; my ability to be decisive; and to the many great leaders who 
have mentored me along the way. As a management circuit rider in the 
southwest, I was assigned to many national parks and offices, including 
the then-Santa Fe Regional Office, the Intermountain Regional, Hubbell 
Trading Post National Historic Site, Jean Lafitte National Historical 
Park and Preserve, Capulin Volcano National Monument, parks in Texas, 
and many others that were facing serious challenges. I worked to 
identify the root of problems and facilitated solutions with park 
managers that resolved the issues at hand. It was not ``I'' who solved 
the problems, but ``we--the team.'' I feel very fortunate, thanks to 
well respected previous regional directors, to have had the opportunity 
to practice my skills. My first superintendency came by way of an 
assignment as acting superintendent of Rocky Mountain National Park. 
So, as I like to say, I was western-trained for 12 years but came onto 
the national scene and given exposure in the East just four years ago.
    My success in the West led to the superintendency of the Oklahoma 
City National Memorial--established to mark the events and to honor the 
victims of the 1995 bombing of the Murrah Federal building. Working 
with family members, survivors, and rescue workers, as well as with a 
Presidentially appointed Trust, State, and local officials, was a 
challenge; but it was a challenge I relished, as I led my team in 
setting up all aspects of operations for this new site.
    After Oklahoma City I became superintendent of Independence 
National Historical Park, home to Independence Hall and the Liberty 
Bell. Independence National Historical Park, a World Heritage Site, is 
considered the premier cultural park in the National Park System. The 
park hosts over five million visitors annually and has over 300 
employees with an operating budget that exceeds $21 million.
    Following a tremendous period at Independence, I was honored to be 
selected as the Northeast Regional Director, where over the past year 
and half I have focused on improved management practices that have 
saved $1.7 million annually in the regional office operational costs. I 
also developed the first Business Plan for a Regional Office, improved 
accountability in programs within parks and program offices, and 
enhanced the performance management system for all park superintendents 
in the region.
    While the mission of the National Park Service remains the same as 
it has been since the Service's inception in 1916, the way we go about 
achieving that mission has evolved greatly as we near our centennial in 
2016. New challenges and opportunities abound. As passionate stewards 
of our natural and cultural heritage, it makes sense to gather together 
to learn from our past and look to the future.
    On the 90th Anniversary of the National Park Service, in August, 
President Bush called on the National Park Service to prepare our 
national parks to flourish for the next 100 years and beyond. Interior 
Secretary Kempthorne announced a 10-year National Park Centennial 
Challenge to help guide the Service through another century as the 
world's leading conservation, preservation, and visitor enjoyment 
agency. The Centennial Challenge will propel us as an agency into a new 
era distinguished by sound government, citizen, and philanthropic 
partnerships that create a better park experience for all visitors and 
raise the conservation bar for the generations yet to come. This is a 
truly wonderful opportunity for the National Park Service, and I look 
forward to working with each of you to meet the challenge set by the 
President and Secretary Kempthorne.
    While park superintendents and program managers are vested with 
much authority, it comes with an equal amount of responsibility that 
demands high quality results, stellar performance, and the utmost 
levels of accountability. Our mission requires constant reexamination 
to assure that we fulfill park mandates and respond to changes in the 
world and in our visitors. In a workforce that comprises civil 
servants, volunteers, contractors, partners, and others, the successful 
leader must have the skills to personally embrace change and to foster 
a climate that encourages others to do the same. Our actions are 
observed by our employees, partners, and indeed the entire community we 
serve. I pledge to you that, if confirmed, I will be a leader who 
demonstrates high ethical standards and promotes transparency in all 
our activities.
    I will ensure that we apply scholarly, scientific, and technical 
information in the planning, evaluation, and decision-making processes. 
I will continue to put into place a highly qualified, diverse workforce 
that reflects the face of America and possesses the management 
excellence, creativity, and innovation skills necessary to lead the 
National Park Service into the future.
    I will work to continue to foster passion for the parks among the 
American public that is as strong as it is among those of us who 
proudly wear the National Park Service uniform--the gray and green. I 
will work to find new ways of ensuring that sustainable processes are 
in place to care for our resources and improve services to the public. 
We must not saddle future generations with the bill, but instead search 
for creative ways of working within our means to leave an inheritance 
we can all be proud of. We must listen to the American people and 
ensure we consider the impacts of our decisions on those who live here 
now and those of future generations who will visit in the years and 
centuries ahead.
    I look ahead to working with people throughout the Nation--not only 
the great men and women of the National Park Service, but our many 
partners, communities, and of course the Congress, to address the 
challenges facing us and to ensure a legacy for the future generations 
called for in the Act that established the National Park Service 90 
years ago.
    I work with some of the finest public servants in any Government 
agency. They are passionate about their work to protect our Nation's 
great places and to welcome the public to them. I would be proud, if 
confirmed, to lead the National Park Service into the bright future 
ahead.
    Thank you all sincerely for the opportunity to be here today. I 
look forward to any questions you may have for me.

    The Chairman. Thank you very much, ma'am. That was an 
eloquent statement, and we will put the full statement in the 
record for review by any members or the staff that advise us.
    Now we'll proceed from that to the--starting with Senator 
Bingaman, and proceeding in that order.
    Senator Bingaman.
    Senator Bingaman. Thank you. And thank you for your very, 
very eloquent statement.
    One issue that has come up in the last year or so, of 
course, involves the revision of management policies for the 
National Park Service. As you know, there's a lot of interest 
in the Park Service, as well as in the Congress, on that. The 
final version of the new policies retained a key sentence that 
I just wanted to read to you. It says, ``Congress, recognizing 
that the enjoyment by future generations of the national parks 
can be ensured only if the superb quality of park resources and 
values is left unimpaired, has provided that when there's a 
conflict between conserving resources and values, and providing 
for enjoyment of them, conservation is to be predominant.'' 
This is how courts have consistently interpreted the Organic 
Act.
    I would just ask for any comments you would have on that 
statement. I was encouraged when that was included in the 
revised management policies, and wanted to see if that was 
something that you agreed with.
    Ms. Bomar. Yes, thank you very much, Senator Bingaman.
    And I would like to say that going through this revision 
over this last year--a thank you to the committee for your 
support--that it has certainly brought clarity to many of our 
policies. And I know, as one coming from a superintendent in 
the field, that always on my desk was the management policies. 
These policies guide our everyday operations within our parks. 
I am confident that a copy of the management policies is on 
every superintendent's desk. It is part of our operational 
tools that we should be referring to. It is an essential part 
of our tools, and we will make sure, if I am confirmed, 
Senator, that the policies are implemented correctly.
    Thank you.
    Senator Bingaman. All right, thank you.
    One of the challenges that the Park Service has, as well as 
a lot of our Federal agencies that manage Federal property, is 
getting the right balance between security and maintaining open 
access to our sites. I know this is an issue that's come up in 
connection with the National Historic Park in Philadelphia.
    Ms. Bomar. Yes, sir.
    Senator Bingaman. I think there's a proposal, as I 
understand it, to construct a 7-foot-high security fence at 
Independence Square, which I gather has been quite 
controversial. Again, do you have any comments that you could 
give us about the appropriateness of a fence at that site, or 
any more general comments?
    Ms. Bomar. Yes. First, let me say that I was absolutely 
honored to be the superintendent at Independence National 
Historical Park. And after 9/11, as you know, we certainly had 
to make many very tough decisions working through the security 
issues, trying to balance visitor service, to make sure that we 
provide the very best visitor experience possible, but also 
safety for our visitors. We have worked through many conceptual 
designs.
    As you know, there are 19 key assets identified by the 
Department of the Interior, and, as an icon park, it requires 
specific security measures. However, there is an appropriation 
of $800,000 to provide fencing, and the reason that we applied, 
after working through the National Park Service, the Washington 
office, was because we felt that the bicycle barricades were so 
unsightly at many of our sites. To purchase and to start 
looking at this new design, that kicked in what we call the 
environmental assessment process. We extended the time--there 
was a 30-day public review period--we extended that time for a 
second 30 days, and the comments overwhelmingly came back to 
look at a modified version of the security. The two gentlemen 
that introduced me today, I will gladly work with both Senators 
to resolve and look at future security measures.
    Thank you for the question.
    Senator Bingaman. Thank you very much.
    Ms. Bomar. Thank you.
    Senator Bingaman. That's all I have, Mr. Chairman.
    Senator Thomas [presiding]. OK, thank you. I guess I'm the 
next victim here.
    I'll have several questions, so I'll ask them quickly, and 
perhaps you can respond fairly quickly.
    Ms. Bomar. Yes, sir.
    Senator Thomas. There's a great deal of diversity in all 
the parks we have in this country. What experience have you had 
in the western parks, such as Wyoming, Montana, and others?
    Ms. Bomar. I came to the National Park Service in 1990. My 
husband was stationed in Del Rio, and that's where I joined the 
National Park Service. For my first 4 years, I as an 
administrative officer, one with a strong financial background, 
in Del Rio, TX, and a regional director gave me an opportunity 
to be kind of a troubleshooter circuit-rider. And I was given 
an opportunity, during those 4 years, to visit many parks and 
help in many areas--e.g., Hubble Trading Post. I lived in a 
hogan on the reservation for about 4 or 5 weeks; as well as 
Jean Lafitte and many other National Parks. I have not had the 
privilege yet of working in your great State, sir.
    Senator Thomas. Good.
    Ms. Bomar. But I look forward to that, if confirmed. 
However, I actually was always considered western-trained, for 
12 years, and really didn't come to the East Coast until 4 
years ago, my assignment after Oklahoma City, to Independence 
NHP.
    Senator Thomas. Good. Well, I hope you'll have an 
opportunity to visit in the West.
    Ms. Bomar. Thank you.
    Senator Thomas. One of the continuing issues, of course, 
has been efficiency--park efficiency and accountability. We've 
been addressing the seemingly endless maintenance. Do you have 
any particular thoughts about how to approach the maintenance 
challenge, in terms of----
    Ms. Bomar. Yes, through the Recreation Fee Program, the 
Repair Rehab Program and the Line-Item Construction Program. 
First of all, I would like to say, Senator, thank you for your 
support in working with us on the backlog maintenance. From 
1997 to 2005, $1.18 billion has come into the parks through fee 
money, and $500 million, almost, of that funding, sir, has been 
put toward backlog maintenance. Also, probably about $500 
million toward that amount has gone toward the cost of 
operations and to visitor services, restoration projects, 
exhibits. So, I hope that we can stay the course and, with your 
support, continuing to address the backlog maintenance.
    Senator Thomas. OK.
    Ms. Bomar. Thank you.
    Senator Thomas. I joined with Senator--or Secretary 
Kempthorne when we visited the park recently, launching the 
National Park Centennial Challenge. What does this challenge 
mean to you?
    Ms. Bomar. I think this is such a shot in the arm for the 
National Park Service. I think we have--opportunities abound 
with the centennial, yes. It was nice to see you on the NPS 
Inside, the next morning with Secretary Kempthorne, celebrating 
the 90th anniversary of the National Park Service. And I just 
think that this challenge could be one of the most successful 
programs ever undertaken by the National Park Service. I see my 
role to support you, to support Secretary Kempthorne and the 
President's mandate. And I do feel that--I just think that we 
all have tremendous partnership opportunities to look forward 
to in the future. I think the vision of the centennial is--
covers a whole gamut of National Park Service programs, and I 
really, truly look forward to working with you on that, Senator 
Thomas.
    Senator Thomas. OK.
    Ms. Bomar. Thank you.
    Senator Thomas. Thank you. The concessions, of course, is 
an interesting thing. And, as you know, the Act prohibits fee 
bidding; nevertheless, we're kind of into that. Possessory 
interest is becoming more of an issue on some. So, as you know, 
Park Service owes Congress a progress report on concessions 
this year.
    Ms. Bomar. Yes.
    Senator Thomas. What's your situation with respect to that 
report?
    Ms. Bomar. I do know that the National Park Service has 
placed a strong emphasis on reducing expired concession 
contracts. Steve Martin, the deputy director, has been working 
with the National Leadership Council, the regional directors, 
and there has been a very strong emphasis placed on working 
with concessions. We now are bringing in the trained personnel 
to work in the concessions program, and I look forward, if 
confirmed, Senator, to working with you further to ensure that 
the report is sent on time to Congress.
    Senator Thomas. Very good.
    Ms. Bomar. Thank you.
    Senator Thomas. Thank you very much.
    Ms. Bomar. Thank you, sir.
    Senator Thomas. Chairman.
    The Chairman [presiding]. Thank you very much.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    And welcome, Ms. Bomar. I very much enjoyed our visit 
yesterday, and appreciated the chance to do it.
    Ms. Bomar. Thank you, Senator Wyden.
    Senator Wyden. As I indicated in our visit, I felt that 
what the Interior Department's Inspector General said last week 
was just extraordinary. And I'm going to read you exactly what 
I found so troubling.
    The Inspector General said, last week, and I quote, 
``Simply stated, short of a crime, anything goes at the highest 
levels of the Department of the Interior.'' Now, this is the 
Department's Inspector General, this is not some outside group. 
And you, of course, would go on, if confirmed, to be part of 
the highest level of the Department of the Interior, just as 
Mr. Devaney indicated. As I told you yesterday in the office, 
and you've had overnight to reflect on it, I'd like your 
reaction to Mr. Devaney's comments, for the record, because I 
think they're almost unprecedented, to have an Inspector 
General say that the Department has lost its ethical compass, 
which is essentially what he said. What would be your reaction 
to Mr. Devaney's comments?
    Ms. Bomar. Thank you. Yes, it was a pleasure to meet you, 
also, yesterday, Senator Wyden. And I'd certainly read the 
testimony and would like to follow up and say--and reiterate 
again from yesterday that I have always maintained the very 
highest levels of making sure that we're transparent in any of 
our business and to make sure that the little white ethical 
book from the Government sits on my desk for reference. I am 
very attuned to having very strong ethics and integrity and 
honesty, and, if I am confirmed, I will certainly make sure 
that that message is sent out throughout the National Park 
Service.
    Reading the reports, or the testimony, is important, but 
what I would like to say to you this morning is that Secretary 
Kempthorne made a statement, and indicated that he would send 
out a message, which he did, actually, to reinforce to the 
Department of the Interior that under his administration, he 
would make sure that we have the highest ethical standards. 
That message was put out immediately, I believe, after he 
attended an ethics briefing. I did say, yesterday, ``The first 
thing I did say to my colleagues this past week was, please set 
me up for my briefing with the ethics OGE this week,'' because 
I felt it was very important.
    I would follow Secretary Kempthorne's lead and make sure 
one of the first things that I would do would be to get a 
letter out to the National Park Service reiterating my 
commitment to the highest ethical standards and to show 
transparency in everything we do, sir.
    Senator Wyden. I appreciate that, ma'am. I still would like 
an answer to the question, though. You have been at the 
Department for 16 years. Is Mr. Devaney off-base? Is he wrong? 
What is your assessment of it? And, of course, the reason I 
also ask is Mr. Devaney has been very critical of Mr. Griles, 
who, of course, was involved with the Park Service, where 
you're going to head. So, could you give me your assessment of 
whether you think Mr. Devaney, the Department's Inspector 
General, is off-base?
    Ms. Bomar. Sir, I understand that the final report is not 
out yet. I have read the testimony. I have not had an 
opportunity to read the full final report, and I do not--I do 
not know, firsthand, all of the details or the circumstances 
with Mr. Griles, but I will assure you today, Senator, that 
during my 16 years--you will never see my name in a report like 
that--that. Again, I will reiterate, I have high ethical 
standards. Today, I can quote to you the ethical regulation of 
my 12 years in the Department of Defense, 3030 AF regulation. 
It is something that is on the radar screen with me every day. 
Every position I've held in leadership, I have made sure that 
ethics has been one of the very strong messages that I have 
sent out to my staff in the past.
    Senator Wyden. To hear you say that you don't want to have 
your name in one of these reports is very welcome news, ma'am. 
That's not the kind of thing we've heard in the past, and I 
sure appreciate that.
    Mr. Chairman, I don't have any further questions.
    Ms. Bomar. Thank you, Senator.
    Senator Wyden. And I will tell you, I actually had some 
additional ones that I was concerned about, about matters with 
respect to national park scientists having their 
recommendations overruled. That's apparently what some are 
alleging at one of the big parks, the Mammoth Cave Park. But 
the fact that you will come here and say that you're committed 
to making sure that your name isn't in one of those future 
Inspector General reports is the kind of commitment I was 
hoping to hear. I look forward to working with you when you're 
confirmed.
    Ms. Bomar. Thank you very much, Senator.
    Senator Wyden. Mr. Chairman, thank you.
    The Chairman. Thank you. Thank you.
    Who's next on our side? Senator Burns.
    Senator Burns. Thank you, Mr. Chairman. I have just a 
couple of questions.
    Ms. Bomar, thank you for stepping forward and your service 
to the Park Service. As you know, Senator Thomas and I, we 
have--although he's got the lion's share and the crown jewel of 
them all, it does overlap into Montana, and we have--we face 
similar challenges, as far as the management of that park.
    Several years ago, I had the opportunity to spend about 3 
or 4 days in that park. We camped, and we rode that country up 
there. And I'm very concerned about the actual management of 
the resource. Right now, I think you've got around 4,500, maybe 
5,000 head of bison in that park.
    Ms. Bomar. Yes.
    Senator Burns. Coming from a resource background and 
livestock background, that park cannot carry that many bison or 
buffalo or however you want to put it. And I'm wondering, have 
you looked at the master plan on how we get those numbers down 
to where we don't have a situation--not only from a brucellosis 
standpoint, but I mean for the park resources. They're eating 
that park right into the ground. And I'm wondering if you've 
taken a look at that, and has it caught your attention with 
regard to the management of not only the wildlife, but also the 
resources that sustain them?
    Ms. Bomar. Thank you, Senator Burns.
    During my tenure as the northeast regional director, I do 
not know firsthand of the issues. We talk very openly as 
regional directors of the National Leadership Council, about 
issues that we all face. And Valley Forge, you know, is going 
through a deer management plan right now, and also the same at 
Gettysburg. They've handled it very well, especially at 
Gettysburg with Superintendent Latschar. And if I'm confirmed, 
I promise I will come back to you and certainly would look 
forward to working with you on that issue.
    Senator Burns. The same is true about the economics in and 
around that park. Do you have an attitude, or do you have an 
opinion on snowmobiles in the park, and winter activities?
    Ms. Bomar. I heard that or was looking at Yellowstone 
National Park, that they have had a winter plan--a temporary 
winter-use plan in place for the last 2\1/2\ years, and I think 
that's been extended for the next 3 years. They are now coming 
out with a draft winter-use plan and also an EIS. I think it's 
supposed to be coming out by November this year. So, I look 
forward to--if confirmed, again, Senator--working with you on 
this issue.
    Senator Burns. Do you have an attitude about--any thoughts 
about the use of motorized travel, such as snowmobiles, in a 
national park?
    Ms. Bomar. Yes, I think it's a balance, and I think, 
through the study, that will be addressed. I know the 
superintendents at both those parks, and I know that they will 
collaborate and use civic engagement to work with the 
communities. I've had a very strong record, as noted by the two 
gentlemen who introduced me today. It confirms that throughout 
my career working with gateway communities, I was very 
inclusive, going to the table and sitting down and talking 
about the issues. I am on Governor Rendell's Tourism 
Partnership Council, and I have always worked very strongly 
with the communities to make sure that they're involved. I am a 
staunch supporter of shared leadership to make sure that we 
work together on these issues and come up with solutions that 
work for everybody.
    Senator Burns. I look forward to working with you, as I 
chair Interior Appropriations, as we try to take a look at our 
backlog of maintenance and the infrastructure of the parks, and 
also the moneys that go back to the parks as a collection of 
the fees. So, I'm looking forward--I'm going to support your 
nomination and look forward to working with you on these 
issues, because they are very, very serious issues in our part 
of the country. And thank you for your service.
    Ms. Bomar. Senator Burns, thank you very much. And I would 
like to state, today, that I will be a very strong advocate for 
funding and for the support of our parks, sir.
    Thank you.
    The Chairman. Senator Alexander.
    Senator Alexander. Thank you, Mr. Chairman.
    Ms. Bomar, I'm delighted with your nomination. To see a 
professional of your caliber in this position is very 
encouraging.
    I'd say to the chairman of the Interior Appropriations, 
before he leaves, that we might be able to work something out. 
We might be able to work something out here, Senator Burns.
    [Laughter.]
    Senator Alexander. All those buffalo, if we could get a 
small appropriation to trade all of our wild hogs in the Great 
Smoky Mountain National Park to you, and we'll take a lot of 
your buffalo in exchange. So, if we could work that out----
    [Laughter.]
    Senator Burns. I'll tell you what, you go catch them, I'll 
order the trucks.
    [Laughter.]
    Senator Alexander. Ms. Bomar, I have three questions.
    Ms. Bomar. Yes.
    Senator Alexander. One is, as important as Yellowstone is--
and I'm surrounded by its advocates here--the Great Smoky 
Mountains National Park has three times as many visitors, and 
no entrance fee, by law, because when the States of North 
Carolina, the people, gave the park to the Federal Government, 
the law was there could never be an entrance fee. So, there is 
a lot of pressure on the park, and not as much revenue coming 
to the park. Will you work with the Congress to try to take a 
special look at our most visited national park and make sure 
that it's adequately maintained, because of that pressure and 
because of the lack of a entrance fee?
    Ms. Bomar. I commit to you today, Senator Alexander, that I 
absolutely look forward to working with you on that.
    Senator Alexander. Thank you very much.
    Ms. Bomar. Thank you.
    Senator Alexander. Second, you may have heard of the North 
Shore Road, which is sometimes called the ``Road To Nowhere'' 
by taxpayer groups and environmental groups and me, who oppose 
it. The ``Bridge To Nowhere'' got famous last year in the 
Congress. This ``Road To Nowhere'' would make the ``Bridge To 
Nowhere'' look like a bargain. It would be about $600 million, 
according to the National Park Service's estimates, through the 
park. It's not necessary. The park's road budget each year is 
$8 million. This would be $600 million. The Governor of North 
Carolina, the Governor of Tennessee, the Senators from 
Tennessee, the Swain County government, the Bryson City 
government, all support a monetary settlement to the local 
governments in lieu of the road. With all that support for the 
monetary settlement, and even though the--and the draft 
environmental impact statement published last January says that 
that settlement is the environmentally preferred alternative, 
and the least environmentally damaging practical alternative--
don't you think it makes the most sense to accept the monetary 
settlement, rather than to build the ``Road To Nowhere''?
    Ms. Bomar. Senator Alexander, I know that this has been a 
contentious issue. I'm afraid I don't have all the details on 
where the EIS actually is in the process, but I would say to 
you, this morning, that you have a brilliant superintendent 
there, Dale Ditmanson, who certainly believes in working with 
you, and certainly with the community, to work on these issues 
together.
    Thank you.
    Senator Alexander. Thank you, Ms. Bomar.
    And, Mr. Chairman, if I could just pose this last question, 
and you may want to respond later to it.
    There has been a role, for a long time, in--well, the 
strategic plan of the Department of the Interior includes the 
goal of improving air quality in class I lands, such as the 
Great Smokies, managed by the Department of the Interior. 
That's a real problem for us. We have the most polluted 
national park in America, and we need to work on it.
    The new proposed Department's strategic plan that will 
remain in effect through 2012 doesn't mention air quality at 
all. According to the NPS's latest air quality assessment, 
there has been either no improvement or declining air quality 
at 41 of the 51 class I parks tracked by the National Park 
Service. Why isn't it still a good idea to let the National 
Park Service, those who are stewards of our class I national 
parks, be involved in the Nation's plan to try to make the air 
quality better?
    Ms. Bomar. You mentioned, Senator, the strategic plan, the 
Department of the Interior's strategic plan, that it wasn't 
included. And I have not had an opportunity yet to be involved 
in that, but if I am confirmed, I certainly look forward to 
working with you on that.
    Senator Alexander. Thank you.
    Ms. Bomar. It's a very important issue, Senator.
    Senator Alexander. And I would appreciate your mentioning 
this, if you are confirmed--which I hope you are--to the 
Secretary. It may just be an oversight, and it's one I'd like 
to see corrected.
    Thank you, Mr. Chairman.
    Ms. Bomar. Thank you.
    The Chairman. Well, thank you very much, Senator Alexander.
    And I can see, Ms. Mary Bomar, that there are no 
controversial issues that are ahead of you as park director.
    [Laughter.]
    The Chairman. It's a so-called ``smooth road,'' right? And 
you have done a very good job of not answering questions in 
advance of the time necessary. And if I wanted to wait for your 
confirmation until you had answered all these questions, I 
don't know how long we would be here.
    Ms. Bomar. That's right.
    The Chairman. But you did a very good job of making sure we 
understand that you know they are bad problems, serious 
problems, right?
    Ms. Bomar. Yes, I do.
    The Chairman. You've got about five of the biggest ones 
they've got in the Park Service proposed here by Senators 
today.
    With that, the Senator from New Mexico will not give you 
any additional ones of that significance. I will merely say to 
you that there are, right in front of you now, many issues that 
must be resolved that have been put off. They won't be put off 
much longer. You will have to get on with a solution to a 
number of them that have been raised here this morning, no 
question about it.
    Ms. Bomar. Yes.
    The Chairman. I want to tell you that I have confidence you 
will do that, and I hope that we can get you confirmed quickly 
so that you can have that opportunity to solve them and to show 
some of us that professionalism within the ranks is entitled to 
recognition. You will be the example of that, for you have been 
professional, par excellence, and now we're giving you a chance 
to run the Department. Good luck.
    Ms. Bomar. Thank you, Mr. Chairman.
    I am honored to be nominated for this position. I work with 
some of the finest professionals in the National Park Service, 
and I look forward, if confirmed, to lead them. Thank you very 
much for the kindness.
    The Chairman. Thank you, Ms. Bomar.
    Now, we're finished asking you questions, but----
    Senator Wyden. This will be very brief.
    The Chairman. I understand the distinguished Senator wants 
to ask a question.
    Senator Wyden. Very briefly, Ms. Bomar, to follow up on 
that other matter we talked about in the office. As I 
mentioned, Senator Smith and I have introduced legislation 
that's extraordinarily important in our part of the country, in 
the Pacific Northwest, for a Columbia Pacific National Heritage 
Area. This essentially would build on this wonderful treasure 
we have on the Oregon coast, at Fort Clatsop. We even have 
folks, apparently, in the audience who have come solely to hear 
you expound on this. You can't possibly know the details of it. 
What I would simply like to ask, for purposes of this morning, 
is if you would hear those folks out and, when possible, when 
you come to the Pacific Northwest, we'd very much like you to 
have it on your schedule to visit the Oregon coast. We have a 
Lewis & Clark--actually, the previous legislation, Fort Clatsop 
National Memorial Expansion Act of 2001, we're continuing to 
build on that. That's what the heritage area is all about. And 
if we could have a hearing to discuss it with you, and have you 
all meet with our folks, that would be much appreciated.
    Ms. Bomar. Thank you. As you know, Senator Wyden, we have 
the 27 heritage areas with us in the national parks that we 
work with, and 14 of them are in the northeast region. They do 
a wonderful job of telling the stories and connecting the 
communities together. So, good luck to you, and thank you for 
very much.
    Senator Wyden. We look forward to it.
    Ms. Bomar. Thank you.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Did you say you had some people in the 
audience with reference----
    Senator Wyden. They are here expressly to make the case to 
folks at the Park Service about this treasure on the Oregon 
coast. I thank you for your courtesy to let me----
    The Chairman. Will they stand up?
    Senator Wyden. That would be great. Can we get that extra 
visibility? There we are. Oregon and Washington rock.
    The Chairman. All right, very good.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Delighted to let your ideas be known today, 
and for her to take cognizance of them.
    And thank you for doing that for us, ma'am.
    Ms. Bomar. Thank you.
    The Chairman. We stand in--oh, excuse me, Senator Thomas, 
from Wyoming, wants an additional comment.
    Senator Thomas. Yes, just a comment or two. I know that 
time is going.
    One is the homeland security issue. In several of the 
parks, particularly in Arizona, down on the border, they're 
spending almost all their resources on taking care of the 
illegal crossing of the border.
    The Chairman. Yes.
    Senator Thomas. So, I think that's something that we really 
have to take a look at. And a good deal of that border is 
included in national parks.
    Ms. Bomar. National park boundary, that's right.
    Senator Thomas. So, it's a tough one. The other thing, of 
course, is we have 390 parks, but the park system is also 
responsible for some of the other kinds of facilities that we 
have, and I think the time has come when we have to start 
making a real evaluation as to what the role of the National 
Park Service is with regard to--some of these things are local 
facilities, and they want to help the business in the village, 
so they'll come and want it to be a national historic site or 
whatever.
    Senator Burns. Yes, sir.
    Senator Thomas. And I just think we have to take a long 
look at that, or we're going to expand this park to beyond 
management areas. I think that's something.
    And the other, of course, is, as in any agency, I think we 
have to really take a look at the efficiency of the management. 
We have to--we start making these plans, and it takes 3 years 
before they're implemented. Those kinds of things. I just hope 
that we can take a look at the inside operations.
    Ms. Bomar. Yes.
    Senator Thomas. Sure, you have to take a look at it, you 
have to do all the various things, but we need to make 
decisions a little more quickly than in 3 or 4 years.
    So, these are just observations that I hope to work with 
you on.
    Ms. Bomar. I look forward to working with you. Thank you 
very much, Senator Thomas, for the kindness you've shown me.
    Thank you.
    The Chairman. We stand in recess, subject to the call of 
the Chair. Thank you.
    [Whereupon, at 11 a.m., the hearing was adjourned.]


                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

     Responses of Mary A. Bomar to Questions From Senator Domenici

    Question 1a. The National Park Service recently finalized its 2006 
Management Policies after several months of internal review and public 
discussion.
    How significant are these management policies to the daily 
operational issues that arise for superintendents and NPS employees?
    Answer. They are very significant to the daily operational issues 
that arise because they: (1) document how we will implement the laws, 
Executive orders, and regulations that govern management of the 
national park system; (2) provide an authoritative source of guidance 
for resolving a broad range of issues that confront our employees 
daily; (3) provide a firm foundation for making sustainable decisions; 
(4) promote consistency and stability across the national park system; 
and (5) provide a basis for measuring the performance of 
superintendents and other NPS employees.
    Question 1b. As a regional director, how did you involve the 
employees in your region in the review of the management policies?
    Answer. As Regional Director of the Northeast Region, I actively 
solicited participation by our employees and park partners in 
commenting on the various drafts of the proposed management policies. 
Two senior Northeast regional employees, (a senior park superintendent 
and Associate Regional Director (ARD)) participated in two review and 
edit meetings in Washington and Denver to work on the development of 
the draft management policies. The ARD for Operations who participated 
in the revisions also conducted an informal ``brown bag'' lunch 
briefing for interested employees in the Philadelphia office. I 
directed all superintendents and ARDs to encourage their employees to 
send in their own comments to the ARD for Communications for forwarding 
to the Washington Office.
    Question 2a. The 1916 Organic Act, which established the National 
Park Service, requires that the park lands be managed in such manner 
and by such means as will leave them unimpaired for the enjoyment of 
future generations. The recent publication of the management policies 
revealed a serious philosophical debate between those who believe in 
enhancing appropriate recreational opportunities in the park system and 
those who believe that preservation of the resource comes first and 
recreation comes second.
    How do you envision reconciling this conflict among the system's 
strongest advocates?
    Answer. The key area of disagreement is over the question of what 
is and what is not appropriate use of the parks. What we have needed is 
a better mechanism for finding an answer to that question. There is no 
quick and universal answer, in part because each park is different. 
Each park has its own purpose and significance; each park has its own 
unique resources; and each park has its own context or environment 
where those resources exist. As a result, decisions must be made on a 
park-by-park and case-by-case basis. While the 2006 Management Policies 
make clear that when there is a conflict, preservation is paramount, 
what is appropriate may vary from one park to another and from one 
location to another within a park. The only way to make reasonable 
decisions on these matters is through careful planning, analysis, and 
application of good professional judgment.
    The 2006 Management Policies will give us improved tools for making 
these decisions. In particular, the policies provide better guidance on 
how to evaluate appropriate use, which is linked closely with better 
guidance on what constitutes unacceptable impacts. In addition, our 
policies now offer comprehensive guidance to superintendents as they 
apply their professional judgment in making decisions. That guidance 
requires that they take into account results of civic engagement and 
public involvement activities relating to decisions. This will not 
resolve all conflicts we encounter, but it will better ensure that our 
decisions are well-reasoned and that all voices are heard.
    Question 2b. As regional director in the northeast, how did you 
sustain the visitor experience while ensuring that resources were 
preserved for the enjoyment of future generations?
    Answer. The Northeast Region is the most urbanized region in the 
National Park System. Providing superlative visitor opportunities, 
while ensuring resource preservation, constitutes our daily work ethic, 
as it does in all regions and among all employees of the National Park 
Service. We are always guided by the mandates of the Organic Act which 
prescribes that we maintain these resources unimpaired for the 
enjoyment of future generations. In the Northeast, we actively involve 
our park partners and communities in achieving sustainable stewardship 
goals for our natural and cultural resources, and shared heritage.
    At Independence National Historical Park, for example, many people 
wish to conduct events associated with Independence Hall or the Liberty 
Bell. At times these events may be appropriate, such as a number of 
events surrounding Independence Day, a natural time for visitors to 
enjoy the park resources and celebrate our nation. We manage the events 
according to a permit process that is common across the system, but 
allows for the individual site superintendent to make decisions based 
upon the unique attributes of the resource.
    The same is true of visitation. There are tools in place for 
superintendents to decide the appropriate carrying capacities of 
resources in a specific park, such as the number of people who can be 
in Independence Hall, congruent with resource protection and visitor 
safety. If confirmed, I will continue to promote visitation and 
recreation that is in keeping with the preservation of parks resources.
    Question 3. On August 25, 2006, the President issued a proclamation 
for the Department of the Interior to begin planning for the centennial 
of the National Park Service in 2016. The initiative is similar to that 
established by President Eisenhower in 1956 which led to an effort 
called Mission 66 for the 50th anniversary of the NPS in 1966. What is 
your vision for fulfilling the President's agenda for the National Park 
Service's 2016 Centennial?
    Answer. Our present and future generations need to know that we as 
a country will protect our heritage and places that commemorate the 
historic events of America. The Centennial Challenge will allow us to 
develop a blueprint for the renewal of parks to better protect the 
parks, connect people to the parks and ensure the financial 
sustainability of the parks--because they are our heritage.
    I believe the Centennial Challenge will give us a unique 
opportunity to connect all Americans and, for that matter, people from 
around the world, to our National Park System. The face of America has 
changed dramatically since Mission 66. Our ability to do a better job 
connecting National Parks to segments of our population who presently 
do not feel connected would be a great accomplishment. While we expect 
considerable interest by the philanthropic community to help fund 
certain projects, the key to the centennial is a combination of federal 
investment and private-sector contributions to focus the attention of 
ALL the American people on our great parks. We will need not only 
signature projects and celebratory events, but the absolute best 
visitor experience for all. This includes those who physically visit 
the parks as well as those who may do so virtually--via the internet, 
distance learning sessions in schools, or other electronic media.
    Question 4. Significant homeland security and border security 
demands are being placed on the national parks and other public lands. 
You were superintendent of Independence, which is a park that has had 
enormous challenges related to homeland security. Would you please 
explain the nature of the security challenges--funding and otherwise--
experienced by national park units, and how Congress might take some of 
the homeland security burden off the parks?
    Answer. The NPS manages a number of formally designated icon sites 
such as the Statue of Liberty, Mt. Rushmore, Independence Hall, the 
Liberty Bell, and the Washington Mall. We also have numerous sites 
along the southern and northern borders that are prone to law 
enforcement issues associated with illegal immigration and drug 
smuggling.
    Our sites are visited by millions of domestic and international 
visitors each year. Each site has its own unique access, security, and 
operational issues, which are influenced by the viewpoints of the 
general public and local, state, and other federal entities. We are 
committed to striking the balance among adequate security, visitor 
access, and visitor enjoyment. We want our sites to be as safe as 
possible from terrorists' attacks while at the same time providing the 
public the freedom to enjoy their parks with as little intrusion as 
possible.
    Congress can work with us to ensure adequate funding for staffing, 
resource deployment, and other law enforcement operations relating to 
support federal, state, and other entities that are involved in 
homeland security. It also can continue to provide oversight of these 
issues and ensure it acts promptly when additional needs arise. I look 
forward to working closely with Congress on many of these issues to 
ensure the NPS is providing the best and most appropriate levels of 
security possible.
    Question 5. As a career member of the National Park Service you 
have a unique and experienced perspective about the Park Service and 
the National Park System that not all appointed Directors have had. 
Based on your experience, what do you believe are the three greatest 
challenges facing the Park Service and the National Park System today?
    Answer. I believe that three of the greatest challenges the 
National Park Service faces are:

          (1) Re-energizing the support of the American people for the 
        National Parks and rejuvenating their pride in the ``Best idea 
        America ever had'';
          (2) Improving the capabilities of the System for the 21St 
        Century to meet the needs of a changing population; and
          (3) Recruiting, retaining, training, and preparing a new 
        generation of leadership for the National Park Service.

    Question 6. Ms. Bomar, as you are aware, Bandelier National 
Monument is the most visited National Park site in northern New Mexico 
with over 230,000 visitors per year. Because of its cultural resources, 
rich history and scenic beauty, the park is truly a national treasure 
and one of our New Mexico treasures.
    Construction to renovate the Visitor's Center at Bandelier was 
originally scheduled to begin in 2004, but is now not scheduled to 
begin until 2008 or 2009. Year after year we have seen recurrent delay.
    The visitor center was built during the late 1930's, and it's in 
desperate need of repair. It's the only public facility at the park and 
I know that local community leaders, state officials, and area Pueblos 
have been working hard along with the dedicated Bandelier Park staff.
    Will you pledge to monitor the planning progress of the Bandelier 
Visitors Center and make its ultimate completion a priority?
    Answer. The renovation of the Bandelier National Monument Visitor 
Center is included in the NPS's 5-year plan for line-item construction. 
It is my understanding that due to changes in the prioritization of 
projects within that program, the Bandelier project is now scheduled 
for construction in FY 2009, rather than FY 2007.
    I also understand the park superintendent has taken steps to 
improve visitors' experiences at the park while we wait for 
construction to begin on the visitor center. Among those improvements 
is the production of a new, high-definition film highlighting the park 
and arranging for expanded park exhibits in other community spaces.
    Senator Domenici, I have wonderful memories of Bandelier National 
Monument from visits during my tenure with the old Santa Fe Region. I 
agree that this is truly a national treasure. I fully recognize the 
importance of this project to the park and the surrounding community, 
and pledge to work to see this project through in a timely manner.
    Question 7. As you know I am a strong supporter of renewable energy 
projects. I firmly believe that increased use of renewables is 
important as we search for solutions to energy security and climate 
change challenges. I have recently been made aware of a proposed 
renewables project in the mountains of Western Maine, the Redington 
Wind Farm that the National Park Serve has formally opposed based 
apparently on the project's proximity to the Appalachian Trail. I would 
like to know if the National Park Service consulted with other agencies 
including the Department of Energy when it issued its formal opposition 
to the project before the Maine Land Use Regulation Commission earlier 
this year. If the NPS did not consult with other agencies, I would like 
to know if this is standard operating procedure and if, in your 
opinion, Executive Order 13212 (issued May 18, 2001) regarding energy-
related project applies to this situation?
    Answer. The National Park Service supports and promotes the concept 
of sustainability including the development of renewable energy. In the 
case of the Redington Wind Farm project, it is my understanding that 
the NPS was asked to comment on the impact of the project on the 
Appalachian Trail during a state review process in which the NPS was 
one of many parties providing information to the Maine Land Use 
Regulation Commission. The hearing was intended to aid in their 
deliberations about whether or not to grant an exception to their 
existing zoning to provide for the proposed Redington Wind Farm. In 
preparing for the hearing, NPS did not consult with the Department of 
Energy in this particular case, nor would it be standard operating 
procedure to do so, given that NPS was merely participating in the 
state process as one of a number of ``expert witnesses'' to discuss 
potential impacts on the Appalachian National Scenic Trail, a federally 
protected resource.
      Responses of Mary A. Bomar to Questions From Senator Thomas
    Question 8a. I understand you have served the Park Service in parks 
all across our great country. Obviously, each Park Service region is 
unique and has its own challenges.
    What experience do you have with issues in Western parks, such as 
those in my home state of Wyoming?
    Answer. Twelve of the 16 years I have spent with the National Park 
Service were in the West working for the old Southwest Santa Fe 
Regional Office; the Intermountain Regional Office in Denver; and in a 
range of parks as a management ``trouble-shooter.'' While I did not 
spend time at parks in Wyoming, I gained experience in addressing a 
broad range of issues that are common to many western parks, such as 
wilderness management, conflicting uses, livestock problems, invasive 
species, water use, access, inholdings, and more.
    Question 8b. When do you plan to travel to the Wyoming parks and 
other parks throughout the West?
    Answer. If confirmed, I plan to accept the invitation to attend and 
speak at the Wyoming Business Alliance/Wyoming Heritage Foundation 
meeting in Casper on November 16 and 17. If time permits, I will visit 
one or more Wyoming parks while I am there. I hope the trip will be the 
first of many opportunities to visit western parks.
    Question 9. As a career member of the National Park Service you 
have a perspective on the Park Service not all appointed directors have 
had. Based on your experience, what are the greatest challenges facing 
the Park Service today?
    Answer. I believe that three of the greatest challenges the 
National Park Service faces are:

          (1) Re-energizing the support of the American people for the 
        National Parks and rejuvenating their pride in the best idea 
        America ever had;
          (2) Improving the capabilities of the System for the 21st 
        Century to meet the needs of a changing population; and
          (3) Recruiting, retaining, training, and preparing a new 
        generation of leadership for the National Park Service.

    Question 10a. The Park Service has made great strides in improving 
efficiency and accountability with programs such as Core Operations, 
the Parks' Scorecard, the Business Plan Initiative and the Office of 
Management and Budget's PART review.
    How would you continue to build on this positive progress?
    Answer. I agree with you that the Service has made significant 
strides related to improving our efficiency and accountability. I 
directed the parks in the Northeast Region to adopt each of these new 
business practices and embrace the principles of accountability that 
they prescribe. I have produced and implemented the first business plan 
for a regional office to demonstrate my commitment to sound management 
and planning. In addition, I was the lead among NPS Directors in 
developing a business plan for Interpretation and Education--the first 
business plan for a NPS program area. I will continue to place high 
priority on these processes with the goal of improving financial 
management decisions at all levels of the organization. I have already 
seen the benefits of each of these initiatives. The park managers in my 
region who have completed a business plan are better informed about 
their financial conditions and options for now and for the future. As 
an added benefit, the Service has been able to hire many of the 
business students that consulted in the preparation of the plans. We 
are going to need more of the kind of skills and thinking that these 
people possess as we continue to build on these successes.
    Question 10b. How can the Park Service utilize the private sector 
to assist in meeting their financial needs without commercializing our 
national treasures?
    Answer. The Service has established clear guidelines regarding 
philanthropic recognition as well as the standards that must be met 
when engaging with partners. As a member of the National Leadership 
Council, I endorsed these guidelines. In my region, and throughout the 
Service, we have successfully completed many large-scale partnership 
projects without compromising our mission or commercializing our parks. 
We will continue to do so under my leadership.
    Question 11a. For several years Congress has been trying to address 
a seemingly endless maintenance backlog.
    How do you intend to tackle this challenge?
    Answer. My approach is three-pronged: (1) continue to be creative 
using available repair, rehabilitation, line item construction, and fee 
program funding to improve known problems as we have been doing over 
the past six years; (2) continue an aggressive preventative maintenance 
program so that we do not slip into a significant backlog in the 
future; and (3) continue the NPS's transformation in the way assets are 
managed through new business practices, with a greater emphasis on 
preventative maintenance and lifecycle costs. The National Park Service 
has completed a systematic, exhaustive inventory of our assets so that 
we know exactly what we have, their location, and the priority of 
individual assets to accomplish the park's mission. NPS is in the 
process of completing comprehensive condition assessments to gain a 
better understanding of the current conditions of the standard asset 
types found in most parks (buildings, houses, roads, utilities, etc.). 
Preliminary facility condition index information for these industry 
standard asset types has been developed, and NPS has the capacity to 
compare it across asset type, by park, within a region, and nationally. 
NPS is also gathering information about ``critical components'' within 
an individual asset. For example, in a building, it is more important 
that the roof and foundation be in better condition than interior 
finishes. Having this information will help NPS to prioritize 
allocation of its resources during the budget process, and will help 
parks make more informed decisions about the costs of sustaining their 
assets.
    Question 11b. How will you measure your progress?
    Answer. Progress is being measured through the facility condition 
index (FCI), which helps our managers understand the relative condition 
of assets within a portfolio. The range of acceptable FCI varies by 
asset type. Appropriate improvement targets will be set accordingly. 
The NPS also has established an asset priority index that allows 
managers to identify mission-critical assets and to target maintenance 
dollars toward them.
    Question 12. Speaking of seemingly endless, I am sure you are aware 
of that many park management plans go on for many years before a record 
of decision is issued. This leaves park managers and visitors with a 
great deal of uncertainty for an extended amount of time.
    How would you help ensure that park management plans reach a timely 
conclusion?
    Answer. The National Park Service has recently adopted a policy 
that when management plans are determined to have no public controversy 
and no significant environmental impacts, environmental assessments 
will be prepared rather than the standard draft and final environmental 
impact statements. I support this policy, which can reduce the time by 
as much as one year to complete the plans and save significant funds. 
The new Management Policies delegate to regional directors, with 
consultation by the Chief, Environmental Quality, the authority to 
approve this waiver. In addition, I believe we need to look at the time 
that it takes for administrative review by the bureau and Department. 
This time could be expedited by encouraging concurrent reviews.
    Question 13a. As you know, I have joined with Secretary Kempthorne 
in launching the National Park Centennial Challenge, an aggressive 10-
year initiative to significantly improve park resources for the 100th 
anniversary of the Park Service.
    What does this challenge mean to you?
    Answer. In 10 years, the National Park Service will be 100 years 
old. I believe we should view the years approaching the Centennial as a 
time to take steps to ensure that the parks will continue to be the 
guardians of our nation's heritage for the next 100 years. There is an 
untapped opportunity to make the national parks better, more 
accessible, and more relevant. With care and a significant federal 
investment, married up with philanthropic donations the parks have the 
capacity to be the source of a national opportunity for education, 
recreation, art, science, and economic growth.
    Question 13b. What is your vision for the future of the parks, for 
the next ten years and beyond?
    Answer. Our present and future generations will agree that we as a 
country will protect our heritage and places that commemorate the 
events of past and future America. My vision for the next ten years and 
beyond is to connect every American to the parks and ensure the 
financial sustainability of the parks. If we are to continue to 
preserve and enjoy these parks, we must care for them and help each 
American value them because they are our heritage.
    Question 13c. If Congress increases Park Service appropriations in 
the coming years, how will you ensure that park managers will continue 
using creative and efficient techniques in order to get the most bang 
for their buck.
    Answer. Systematic evaluation of park needs through the core 
operations analysis and parks scorecard will ensure that the 
fundamental visitor, natural, cultural, maintenance, line item 
construction (permanent infrastructure) and operational needs of the 
service are met. This will also provide for 21st century leadership 
training that will allow for more efficient, effective, and responsive 
management and partnership capabilities.
    Question 14a. The Organic Act of 1916, which established the 
National Park Service, clearly states that visitor enjoyment is a 
primary mission of the Park Service.
    What are your views on the role of tourism and recreation in the 
NPS mission?
    Answer. The first NPS Director, Stephen T. Mather, laid out a 
strategic vision for visitor enjoyment that included providing for 
visitor comfort, education, and inspiration. As a park Superintendent 
and Regional Director I have gained valuable insight into tourism's 
relationship to the NPS mission while conducting numerous civic 
engagement exercises with members of the tourism community. I have also 
served on Governor Rendell's Tourism Partnership Advisory Board while 
superintendent of Independence National Historical Park--a position I 
continued as Regional Director.
    NPS Management Policies contain a new section on tourism which 
states that, ``The Service will support and promote appropriate visitor 
use through cooperation and coordination with the tourism industry.'' 
If confirmed as Director, I intend to uphold these policies of dialog 
and outreach with our tourism partners as well as encourage 
environmental leadership by the Service and the tourism industry.
    Question 14b. How do you feel about snowmobiles in Yellowstone and 
Grand Teton National Parks? Would you ever support a ban on their use?
    Answer. I understand that these parks are currently operating under 
an interim winter use plan that provides a balanced approach to winter 
access with an appropriate mix of snowcoach, wheeled vehicle, non-
motorized, and snowmobile use in the parks. With regard to snowmobiles, 
we have seen over the past two winters that they may be operated 
without unacceptable impacts to park resources and visitors through the 
use of best available technology requirements, limits on the number of 
snowmobiles that may enter the parks each day, guiding requirements, 
and other reasonable restrictions.
    A new winter use plan and environmental impact statement (EIS) is 
underway for Yellowstone and Grand Teton National Parks and the John D. 
Rockefeller, Jr. Memorial Parkway. The draft EIS and a proposed rule 
will be released for public review and comment during winter 2006-2007. 
I look forward to being a part of this important process.
    Question 15. Currently, Dean Reeder, the National Tourism Director 
for the National Park Service has no funding to promote tourism or to 
address visitation numbers.
    Would you adequately fund his operation?
    Answer. The National Tourism Office (NTO) is within our 
Partnerships, Interpretation, Education, and Outdoor Recreation 
Associate ship. The NTO is charged with developing, in concert with our 
regional offices and park managers, a long-range strategic plan for 
tourism development.
    I think it is important to keep park and regional personnel 
involved in tourism development as they contribute immensely and want 
to be involved. I was closely involved with tourism organizations as 
superintendent of Independence NHP, and encouraged close cooperation 
with tourism organizations while Northeast Regional Director, such as 
an excellent partnership with NYC& Company, the New York City 
Convention and Visitors Bureau.
    The Centennial Challenge will provide an excellent opportunity to 
highlight and promote park visitation and to target and invite members 
of our underserved populations. It will also give us a great chance to 
work with our tourism partners and gateway communities by engaging the 
public directly and inviting families and citizens of all ages to 
celebrate the National Park ideal. The American public, by renewing 
their acquaintance with national parks, will be participating in the 
dialog to envision our next century of parks, and the enjoyment of the 
same.
    Question 16. Permitted outfitters and guides, both commercial 
entities and non-profit organizations, are a critical component of 
local communities and provide park access and enjoyment for a broad 
spectrum of visitors. Most outfitters are authorized under the 
Incidental Business Permit, which is now being converted to the new 
Commercial Use Authorization.
    How will the NPS work with outfitters to ensure a stable business 
environment under the new Commercial Use Authorization?
    Answer. It is my understanding that the National Park Service has 
actively worked with outfitter and guide groups to ensure they have a 
voice in the development of new policies implementing commercial use 
authorizations (CUA). The NPS Concession Advisory Board established a 
working group charged with developing CUA guidelines, and this group 
included representatives from both commercial and non-profit entities. 
The group helped to formulate the policies that are now in the interim 
CUA guidance. The NPS has also actively sought the input from these 
groups in public meetings and will continue to work closely with them 
to address their concerns.
    Question 17a. The 1998 Concessions Act prohibits ``fee-bidding''--
the award of concessions contracts based simply on the highest fee to 
be paid to the U.S. Recently, however, NPS has been engaging in de 
facto fee bidding by routinely declaring that offers are ``tied'' on 
selection factors involving visitor services and resource conservation 
and breaking the ``tie'' by selecting the offer with the highest fee.
    Do you believe this practice is consistent with the letter and the 
spirit of the 1998 Concessions Act?
    Answer. The NPS evaluates offers based on the criteria outlined in 
the 1998 Concessions Act. I am aware that there is a concern that the 
fee is the deciding factor. However, I understand it is rare for two 
offers to be so close in their scores that the franchise fee offered is 
the deciding factor. The NPS believes quality visitor services, 
protection of the resource, and operational ability of the 
concessionaire are the most important evaluation factors for concession 
operations.
    Question 17b. Do you agree that the primary purpose of the 
concessions program is to provide quality service to Park visitors 
rather than maximize revenue to NPS?
    Answer. Absolutely. As I stated above, quality visitor service, 
protection of the resource and operational expertise are the most 
important factors to the NPS in the concession program.
    Question 18a. During the last few years the National Park Service 
has been competing concessions contracts, such as Hamilton Stores at 
Yellowstone National Park, which involve a large amount of possessory 
interest. The exact value of the possessory interest has been contested 
after contract award and the new concessioner and NPS have had to 
modify the terms of the contract.
    As superintendent and regional director, what have you done to 
minimize the impact of possessory interest on contracts?
    Answer. I believe it is beneficial for the NPS and the concessioner 
to negotiate the value of the possessory interest prior to the release 
of the prospectus for a new contract. This allows the NPS to issue 
prospectuses with a set value for possessory interest, eliminating the 
uncertainty for offerors and the NPS. Additionally, the Northeast 
Region has, whenever possible, utilized franchise fees to undertake 
investments for capital improvement projects. This use of franchise 
fees eliminates additional possessory interest.
    Question 18b. How would you change the contract selection process 
to minimize the impact of possessory interest?
    Answer. As I stated above, negotiating the value of possessory 
interest prior to the release of a prospectus is beneficial to both the 
NPS and concessioners. If confirmed as Director, I would encourage this 
practice.
    Question 19. As I am sure you know, the Park Service owes Congress 
a progress report on the new concessions law this year.
    How will you ensure that the report is a fair and accurate 
assessment of NPS programs in conjunction with the new law?
    Answer. The NPS sought input for the report from the concession 
community, and used the information gathered from concessioners, 
private sector consultants such as PricewaterhouseCoopers, and internal 
program experts to compile the report. The report, which is in the 
final stages of development, will reflect this input, and provides the 
analysis requested in the 1998 Concession Act.
    Question 20. In the West, and across the nation, our national parks 
are often bordered by gateway communities. It is critical to maintain 
good communication and cooperation between parks and local communities.
    What steps would you take to ensure the Park Service continues to 
cultivate good relationships with gateway communities?
    Answer. I personally feel strongly about the importance of 
cultivating good relationships with gateway communities. During my 
tenure at Independence National Historical Park, I created a full-time 
partnership position and full-time volunteer coordinator who worked 
very closely with the park Special Use Coordinator to ensure we worked 
with the parks eighty known partnerships and community groups. Along 
with my staff, I attended regular park update meetings with many of our 
gateway community groups. Annually we held a park open house day for 
our community and partners to thank them for their support and give 
them an update of park projects, future events and general park 
operations.
    It is also the stated policy of the NPS. In the recently released 
2006 NPS Management Policies, Section 1.7 speaks to the importance of 
civic engagement with gateway communities, which is to be ``. . . 
viewed as a commitment to building and sustaining relationships with 
neighbors and other communities of interest . . . Park and program 
managers will seek opportunities to work in partnership with all 
interested parties to jointly sponsor, develop and promote public 
involvement activities and thereby improve mutual understanding, 
decisions and work products. Through these efforts the Service will 
also learn from the communities it serves, including gateway 
communities.'' If confirmed, I will continue to support this policy and 
work to ensure that park and program managers do likewise.
    Question 21a. As you know, the State of Wyoming and the Department 
of the Interior are at odds over the management and delisting of 
wolves. Wolves are recovered and should be delisted. The National Park 
Service played a major role in initially bringing Canadian wolves to 
Wyoming and will be responsible for managing wolves within the parks.
    What do you believe can be done to resolve the current dispute?
    Answer. It is my understanding that Idaho and Montana have U.S. 
Fish and Wildlife Service-approved wolf management plans and management 
of wolves has been transferred to them.
    The NPS continues to facilitate gray wolf recovery at Yellowstone 
National Park and collaborate, as warranted, with the USFWS to support 
the Northern Rocky Mountains gray wolf recovery program.
    I understand that in 2004, the NPS Intermountain Regional Director 
and the Director of Wyoming Game and Fish signed a Memorandum of 
Understanding to share information on wolves that would assist in 
meeting the missions of both agencies. Building on that MOU, the 
Superintendent of Yellowstone and the Wyoming Director have also signed 
an agreement to cooperatively monitor wolves and their natural prey. It 
is my belief that the continued collaboration between all affected 
agencies is the only way to resolve this situation. I pledge my support 
to this continuing collaborative process.
    Question 21b. Please explain your views on how wolves should be 
managed within the parks to avoid damage to wildlife and landowners 
outside the parks?
    Answer. I understand that in order to facilitate monitoring and 
research, all of the wolves brought from Canada were radio-collared 
before release. Park staff currently maintains radio collars on up to 
half of the wolves in the population allowing Wolf Project staff 
members to monitor the population.
    The special rules established by the USFWS for restoration of the 
``nonessential experimental'' population contain provisions for 
addressing the possibility of conflicts with livestock. I understand 
there is also currently a plan that seeks to compensate livestock 
owners for the value of lost livestock.
    Question 22a. As you know, brucellosis has been eradicated from the 
State of Wyoming except within wildlife populations within Yellowstone 
and Grand Teton National Parks. While the state recently regained its 
brucellosis-free status, the presence of the disease in bison and elk 
populations within the Parks is still problematic.
    Do you believe eradicating brucellosis should be a priority for the 
Park Service?
    Answer. The National Park Service is collaborating with the U.S. 
Department of Agriculture and the states of Idaho, Montana, and Wyoming 
to maintain wild and free-ranging populations of elk and bison in the 
Greater Yellowstone Area (GYA), and to work together to continue long-
term planning processes for the eventual elimination of brucellosis 
from GYA bison and elk.
    The development of more effective vaccines, more effective vaccine 
delivery techniques for free-ranging wildlife, and better diagnostic 
techniques for identifying infection in live animals are priority 
research and development needs. Systematic vaccination of elk and bison 
will, over the long-term, reduce disease prevalence in elk and bison 
populations, especially if vaccine technology and methods for remote 
vaccine delivery to free-ranging wildlife are improved.
    Question 22b. If so, what will the Park Service do to eradicate 
brucellosis?
    Answer. Yellowstone National Park is working on a draft 
Environmental Impact Statement to assess the effects and determine the 
feasibility of vaccinating bison in the park against brucellosis by 
using a remote delivery system. A remote delivery system consists of a 
method to vaccinate the animals without capture or direct contact 
between humans and animals.
    The Greater Yellowstone Interagency Brucellosis Committee, composed 
of state and federal employees, meets regularly to share information 
and coordinate research needs and results. Its objectives are diverse, 
but include protecting biologically viable elk and bison populations, 
preserving state and federal jurisdiction for management of wildlife 
and livestock, and a commitment to basing brucellosis-related 
management recommendations on factual information. Recognizing the 
economic interests of the livestock industry is an important factor in 
addressing this issue.
    Question 23. Homeland security activities take a significant toll 
on our national parks and their staff. I offered an amendment to the 
immigration bill this year to help protect our federal land borders and 
natural resources. How would you characterize the homeland security and 
border security demands that are being placed on many border and icon 
parks?
    Answer. The NPS manages a number of formally designated icon sites 
such as the Statue of Liberty, Mt. Rushmore, Independence Hall, the 
Liberty Bell, and the Washington Mall. We also have numerous sites 
along the southern and northern borders that are prone to law 
enforcement issues associated with illegal immigration and drug 
smuggling.
    Our sites are visited by millions of domestic and international 
visitors each year. Each site has its own unique access, security, and 
operational issues, which are influenced by the viewpoints of the 
general public and local, state, and other federal entities. We are 
committed to striking the balance among adequate security, visitor 
access, and visitor enjoyment. We want our sites to be as safe as 
possible from terrorists' attacks while at the same time providing the 
public the freedom to enjoy their parks with as little intrusion as 
possible.
    There have been additional responsibilities placed on our staffs at 
icon and border parks. We have worked diligently to balance increased 
staffing and overall security infrastructure and maintaining the levels 
of service we provide in other areas.
    Congress can work with us to ensure adequate funding for staffing, 
resource deployment, and other law enforcement operations relating to 
support federal, state, and other entities that are involved in 
homeland security. It also can continue to provide oversight of these 
issues and ensure it acts promptly when additional needs arise. I look 
forward to working closely with Congress on many of these issues to 
ensure the NPS is providing the best and most appropriate level of 
security possible.
     Responses of Mary A. Bomar to Questions From Senator Martinez
    Question 24. Ms. Bomar, you have most recently served as the 
Director of the National Park's Northeast Region, which faces many 
geographic challenges as well as large, urban interface areas. As you 
know, Everglades National Park is in close proximity to the Miami-Dade 
metro area as well as Biscayne National Park. How has your previous 
experience prepared you to help oversee the management of parks in such 
diverse places?
    Answer. As the Northeast Regional Director, I routinely responded 
to the challenges of managing parks within an urban environment by 
applying innovative and creative management solutions along with civic 
engagement which produced successful results. I have visited the 
Everglades and know firsthand that this is truly a one-of-a-kind 
national treasure that has a complex set of challenges involving many 
competing interests. I am confident that my overall experience in the 
National Park Service, especially in bringing together diverse 
competing interests to develop mutually acceptable solutions, will 
serve me well to resolve similar South Florida park interface 
challenges in the Miami-Dade metro area.
    Question 25. Last Spring, I visited Everglades National Park, Big 
Cypress National Preserve, and Ten Thousand Islands National Wildlife 
Reserve. I am looking forward to getting you down there to tour this 
amazing part of Florida. As you know, the Comprehensive Everglades 
Restoration Plan (CERP) is the most ambitious public works project in 
our nation's history and our most challenging. Should you be confirmed, 
will you continue the commitment and prioritization at NPS with 
restoring the Everglades to its historic sheet flow?
    Answer. Thank you for the invitation to tour South Florida Parks 
with you. It would be my pleasure to do so, should I be confirmed. Yes, 
I will continue to support the objectives of the CERP, and I applaud 
your efforts in this regard. I look forward to continuing the progress 
made with the State of Florida in restoring historic sheet flows to 
Everglades National Park.
    Question 26. Ms. Bomar, you mentioned the upcoming Centennial 
Challenge introduced by President Bush and Secretary Kempthorne to 
prepare the National Park Service for its upcoming 100th anniversary in 
2016. What sort of investment do we need to make in our parks to make 
this initiative a reality to restore our national gems?
    Answer. We need to make a commitment to fulfill the goals of the 
Challenge to match federal funds, philanthropy, and volunteerism to 
stride boldly into the next 100 years of National Parks. The President 
challenged the citizens of the Nation to join us in this initiative, 
matching federal investments with philanthropic gifts, culminating in 
the centennial celebration of the National Park Service in 2016. With 
our continued care and enhanced investments, the parks have the 
capacity to be the source of a national opportunity for education, 
recreation, art, science, and economic growth.
    Question 27. Do you feel the NPS has enough resources to 
effectively manage all our parks, conduct routine maintenance, and hire 
and retain staff? If not, what would you recommend from a budgetary 
standpoint to improve the mission of the Park System.
    Answer. As a result of Congress's strong support, record levels of 
funds are being invested to staff and improve our parks, and 
significant investments are being made in the maintenance of park 
facilities and roads, and in monitoring and protection of the park 
natural resources. We are also working smarter by employing a number of 
innovative management approaches to identify management improvements 
and efficiencies that will result in improved visitor services and more 
cost-effective operations.
    NPS reached its 90th anniversary in August. If confirmed, I plan to 
carry out President Bush's vision to ensure that the NPS budget will 
``further enhance the national parks during the decade leading up to 
the 2016 centennial celebration.'' (President Bush, August 25, 2006). 
As I stated at my confirmation hearing, I will be a strong advocate for 
funding and support of our parks. I look forward to working with the 
Congress to make the President's vision a reality.
    Question 28. Our national parks are true national treasures for all 
to enjoy. What is your philosophy on access of NPS land for 
recreational enjoyment for the public?
    Answer. I concur fully with our Management Policies that national 
parks belong to everyone, and we welcome everyone to experience their 
parks. The policies go on to say that we also welcome international 
visitors, in keeping with our commitment to extend the benefits of 
natural and cultural resource conservation and outdoor recreation 
throughout the world. The condition we attach to this open invitation 
is that the forms of recreation that people wish to pursue must be 
appropriate to the parks and not cause impairment or unacceptable 
impacts to the parks' resources. This will ensure that future 
generations can enjoy the parks in a condition that is as good as, or 
better than, the conditions that exist today.
    Question 29a. In Florida, at Biscayne National Park, a Clinton era 
NPS rule is still being used that prohibits personal watercraft (PWC) 
vessels from entering the park while allowing recreational boating and 
commercial vessels to operate in the park.
    Will you support open access of our parks?
    Answer. Enjoyment of our parks is part of the mission of the 
National Park Service. However, I believe that not all uses are 
appropriate for all parks.
    Question 29b. Will you support public comment being offered before 
closing off access like the Clinton Administration policy for PWCs?
    Answer. If confirmed, I will ensure that the NPS solicits public 
comments when it makes future decisions that have significant impacts 
on the public and its enjoyment of the parks.
    Question 30. It is my understanding that no Environmental Impact 
Statement or Environmental Assessment was ever performed at Biscayne 
National Park to warrant the prohibition of PWCs, do you know why no 
such environmental review was performed?
    Answer. I understand that the regulation was adopted after a notice 
and comment rulemaking in which over 20,000 comments were received 
regarding PWC use through the National Park System, including Biscayne 
National Park. I also understand that, at that time, it was determined 
by the NPS that the rulemaking would maintain the quality of the human 
environment, health, and safety, and therefore a categorical exclusion 
under the NEPA regulations was appropriate for the regulation.
       Response of Mary A. Bomar to Question From Senator Dorgan
    Question 31. So my question to you, Ms. Bomar, is what kind of a 
strategy do you intend to bring to the budget process? What areas of 
the budget do you think we need to cut and are there areas where you 
think we should be doing more?
    Answer. If confirmed, I plan to carry out President Bush's vision, 
expressed on the National Park Service's 90th Anniversary in August, to 
ensure that the budget will ``further enhance the national parks during 
the decade leading up to the 2016 centennial celebration.'' As I stated 
during my confirmation hearing, I will be an advocate for funding and 
support of our parks. But I also understand the need to be effective 
and efficient, practices I stressed as a regional director. I plan to 
use innovative evaluation tools within the NPS, such as the Core 
Operations Analysis and the Park Scorecard, to determine appropriate 
resources and effectively allocate those resources to achieve the 
strategic goals of the National Park Service. We will also need a 
strong philanthropic commitment to meet the needs of the National Park 
Service as well.
    I am committed to working with you in developing budgetary 
strategies to deal with other issues that have a direct impact on our 
ability to appropriately staff park operations and maintain resources, 
such as escalating utility costs.
     Responses of Mary A. Bomar to Questions From Senator Cantwell
    Question 32. Please describe how Senate Bill 781, the Right-to-Ride 
Livestock on Federal Land Act of 2005, would affect or change current 
Park Service land management practices or relevant decision-making. 
Does the Park Service have any particular policy regarding the use of 
pack and saddle stock animals? Please describe any instances in the 
last 5 years where trail accessibility was changed specifically for 
pack and saddle stock animals anywhere in U.S. Forest Service lands. If 
there are instances, please explain the justification for closing these 
trails.
    Answer. From what I understand, S. 781 would have little impact on 
current NPS management practices because the bill requires land 
management agencies to comply with NEPA before closing trails 
permanently, which NPS already does. While we recognize that use of 
pack and saddle stock animals is an important activity that park 
visitors enjoy, NPS does not have an overall policy applicable to this 
activity; this use is largely determined on a park-by-park basis. I am 
not personally aware of any instances in the last 5 years where trail 
accessibility was changed specifically for pack and saddle stock 
animals on any Federal lands. However, if confirmed, I would be willing 
to look into this matter further and work with members of Congress who 
have concerns in this area.
    Question 33. I understand the Forest Service is currently updating 
their National Trail Classification System, a process that will set 
design and maintenance parameters for new and existing trails on 
National Forest Lands. Will this reclassification process affect the 
National Parks Service's existing trail classification system?
    Answer. My understanding is that the proposed revisions to the 
Forest Service nationwide trail classification system involves all 
trails on national forest lands, not just National Trails, but does not 
affect other agencies. There appears to be no reason why this Forest 
Service action would have any affect on how the National Park Service 
classifies its trails.
    Question 34. How would the major budget cuts proposed in the 
President's FY07 Budget request for the NPS affect trail maintenance in 
the National Park System? Will your budget allow you to maintain trails 
to current standards, and if not, how will the Service prioritize which 
trails are to be maintained?
    Answer. It is my understanding that trail maintenance is 
historically funded from park base operational funding and cyclic 
maintenance. There is no reduction in park base operational funding in 
the President's 2007 request, and there is a $10 million increase for 
cyclic maintenance in the President's 2007 request.
    Question 35. Please describe in detail how the budget decrease 
proposed in the President's FY07 budget request for the NPS would 
affect each National Park Service unit in Washington state.
    Answer. Park base operational funding for all nine parks in 
Washington State is increased in the President's 2007 request. In 
addition, the President's 2007 request for line-item construction 
includes $27.9 million for projects in Washington State. This would 
follow the $26.8 million for line-item construction projects in 
Washington State that Congress appropriated for FY 2006.
    Question 36. As you may know, Mount St. Helens in southwest 
Washington is currently a National Volcanic Monument managed by the 
Forest Service. I have been approached by some of my constituents who 
advocate that it should be made a National Park. Could you please tell 
me what additional resources DOI would bring to Mount Saint Helens as a 
National Park that are not currently provided by the Forest Service as 
it managed as a National Monument?
    Answer. If the National Park Service were given responsibility for 
management of Mt. St. Helens, it would be managed in a manner similar 
to all of the other 390 units of the National Park System. However, it 
is premature to comment on what resources would be available or other 
actions that would be taken should such a management change be directed 
by Congress. Interior has a process for examining the suitability of 
areas for designation by Congress as a park unit and, if directed by 
Congress, this process would be used to examine Mount St. Helens.
    Question 37. Originally the National Park Service supported 
establishment of the Ice Age Flood Trail as encompassed in S. 206 which 
passed the Senate in November 2005. At a recent hearing on the bill on 
the House side, the Park Service reversed their opinion and opposed the 
bill. The proposal enjoys wide, bipartisan support. If you are 
confirmed as the new director of the NPS, would you be open to 
reconsidering the Park Service's public stance on this proposal?
    Answer. I am aware of the strong support among the Pacific 
Northwest congressional delegation for the Ice Age Floods National 
Geologic Trail proposal. The National Park Service conducted a study on 
Ice Age Floods and recommended, as the preferred alternative, the 
establishment of a National Geologic Trail--an auto route through areas 
that have prominent flood features. The Department has opposed the 
legislation in its current form and urged a less costly alternative--
expanding on the interpretation that is already being done at Lake 
Roosevelt National Recreation Area. If legislation to establish this 
trail does not pass during the 109th Congress and is reintroduced next 
Congress, the Department will review its position on the legislation, 
and I will be part of that process.
    Question 38. As you know, Secretary Kempthorne recently announced a 
``Centennial Challenge'' for the National Parks. In the past, the NPS 
has been criticized for failing to follow through on promises related 
to the parks, in particular President Bush's 2000 campaign promise to 
eliminate the NPS maintenance backlog. Please describe how you plan to 
implement this initiative and what you believe it could mean for our 
nation's parks. How would you respond to critics that do not believe, 
based on the Administration's record to date, that help for the parks 
might be forthcoming?
    Answer. I plan to follow through with the Administration's 
commitment to recognize the national parks for the next century, 
including producing a blueprint for philanthropic, public-private 
ventures by May 2007 as requested by the President. As I stated at my 
confirmation hearing, I will be a strong advocate for funding and 
support of our parks. Through the Centennial Challenge, I will:

  <bullet> coordinate with interested groups;
  <bullet> recommend goals and the overall framework for the planning 
        and execution of the Centennial Challenge;
  <bullet> highlight signature projects of the Centennial Challenge; 
        and
  <bullet> engage and educate partners and the public on how to get 
        involved in the Centennial Challenge.

    Question 39. Senator Murray and I recently introduced S. 3905, 
which would include the Eaglesdale ferry dock site on Bainbridge 
Island, Washington in the Minidoka Internment National Monument. Such 
designation was recommended in May 2006 in a report issued by the 
Department of Interior. If nominated as director of the Parks Service, 
would you be supportive of this legislation?
    Answer. I understand that the House Subcommittee on National Parks 
will have a hearing on the House companion to S. 3905 on September 28 
as the first step in considering legislation to implement this part of 
the General Management Plan and the National Park Service's Special 
Resource Study. While the Administration has not yet taken a position 
on this legislation, I am aware that the recently-completed General 
Management Plan, as well as the Special Resource Study, supported the 
inclusion of this site in Minidoka Internment National Monument.
    Last month, I had the great pleasure of visiting Bainbridge Island 
and Olympic National Park while attending a National Leadership Council 
meeting. I truly enjoyed driving the rustic, charming, quiet country 
roads on this magnificent island. I look forward to working with you in 
the future and learning more about this very powerful story.
    Question 40. Do you support H.R. 5732, which would direct the 
Secretary of Interior to continue stocking fish in certain lakes in 
North Cascades National Park, Ross Lake National Recreation Area, and 
Lake Chelan National Recreation Area? Please describe any specific 
concerns you may have, or why it is supported by the NPS.
    Answer. The National Park Service and the State of Washington 
Department of Fish and Wildlife are in agreement with all elements of 
the Mountain Lakes Fisheries Management Plan. A 12-year study, 
resulting in the plan, applies the best available science and provides 
for the removal of fish in some lakes and continued stocking in others. 
I understand the Administration has not yet developed its position on 
H.R. 5732. If confirmed, I will carefully review the plan and consider 
whether H.R. 5732 will assist with the plan's implementation and is 
consistent with NPS priorities.
    Question 41. In the President's 2006 budget request, the 
Administration supported land acquisition for the newly created Lewis 
and Clark National Historical Park. However, this year's budget request 
did not ask for any additional funds needed to finish this landmark 
park. Please explain that decision, and will you commit to requesting 
appropriations in FY08 that will allow this Park to be completed?
    Answer. It is my understanding that the Department's 2007 request 
for land acquisition required difficult choices among many worthy 
priorities. As we develop the 2008 budget for land acquisition, I will 
commit to considering the merits of the Lewis and Clark NHP acquisition 
as we set our priorities and determine the specific acquisitions to 
request in the budget.
    Question 42. Are there currently any plans to drill for oil and gas 
or allow mining within 20 miles of any U.S. National Park?
    Answer. I understand that there are places relatively close to 
national parks where oil and gas activity has been proposed. One of the 
challenges of managing the national parks is recognizing that there are 
many development uses going on outside of our boundaries and, 
sometimes, inside the boundaries on private lands where valid existing 
rights exist. The National Park Service works with its neighbors, be 
they other federal agencies, state or local entities, or private 
parties, to try to ensure minimal impact from that development on park 
resources.
    The recently-adopted Management Policies addresses the subject of 
adverse impacts outside of park boundaries in Section 1.6, which 
recognizes that protecting park resources requires managers to address 
threats that occur outside park boundaries and states that ``[t]he 
Service will use all available tools to protect park resources and 
values from unacceptable impacts.''

      Responses of Mary A. Bomar to Questions From Senator Salazar

    Question 43. In 2000, the President promised to provide enough 
funding over five years to eliminate Park Service's maintenance 
backlog, which was estimated at the time to be $4.9 billion. It is now 
five years since that commitment and I am hearing estimates that place 
the NPS maintenance backlog somewhere between $4.5 billion to $9.69 
billion. That is to say that the maintenance backlog at the Parks seems 
to have increased over the past five years. What steps are you going to 
take, either through added funding or other means, to reduce the 
maintenance backlog?
    Answer. With funds provided over the past five years, the National 
Park Service has undertaken thousands of facility improvements, 
resulting in improved roads and trails, rehabilitated visitor centers, 
more accessible campgrounds, stabilized historic structures, and high 
visitor satisfaction rates. The Service has also transformed its 
management approach to facilities through new business practices, with 
a greater emphasis on preventative maintenance and lifecycle costs. If 
confirmed, I will continue these efforts.
    The National Park Service has completed a systematic, exhaustive 
inventory of our assets so that we know exactly what we have, their 
location, and the priority of individual assets to accomplish the 
park's mission. NPS is in the process of completing comprehensive 
condition assessments to gain a better understanding of the current 
conditions of the standard asset types found in most parks (buildings, 
houses, roads, utilities, etc.). Preliminary facility condition index 
information for these industry standard asset types has been developed, 
and NPS has the capacity to compare it across asset type, by park, 
within a region, and nationally. NPS is also gathering information 
about ``critical components'' within an individual asset. For example, 
in a building, it is more important for the roof and foundation 
condition to be in better condition than interior finishes. Having this 
information will help NPS to prioritize allocation of its resources, 
and will help parks make more informed decisions about the costs of 
sustaining their assets.
    Question 44. If nominated, will you agree to conduct a complete 
survey of the maintenance backlog at the Parks and share that with 
Congress?
    Answer. Over the past several years, the National Park Service has 
conducted an intensive assessment of the condition of eight industry-
standard assets (buildings, overnight campsites, trails, unpaved roads, 
paved roads, employee housing, water treatment systems, and waste water 
treatment systems), providing information that it has never had before, 
including systematic information about its inventory, its value, its 
condition, and requirements for sustaining the assets. All parks have 
completed preliminary condition assessments, and we are on track to 
have comprehensive condition assessments completed by the end of FY 
2006. The next step, which we are beginning now, is to develop 
servicewide assessment, inventory, and valuation techniques for the 
non-industry standard asset types (monuments, ruins, fortifications, 
railroads, amphitheatres, etc.), which comprise nearly 30 percent of 
the total NPS asset inventory.
    If confirmed, I will be pleased to share the results of our 
assessments with Congress.
    Question 45. For the past year I and several of my colleagues have 
been paying close attention to the rewriting the National Park Service 
management policies. I was extremely pleased that the final copy of 
policies signed last month restored the 90-year-old management 
principle to ``First, do no harm,'' and abandoned earlier efforts to 
institute a less protective approach to park management. This rewrite 
of the management policies, which I am not convinced was necessary in 
the first place, took a tremendous amount of staff time and resources 
to complete. Can you assure me that, notwithstanding significant 
changes in law or scientific research, you will not attempt to 
undertake such a rewrite during your tenure as National Park Service 
director?
    Answer. Yes. I am confident that the 2006 Management Policies 
provide us with both a steady hand to guide us in making difficult 
decisions that lie ahead, and flexibility to adjust to unusual 
situations where, for example, a strict application of the policies 
would not make sense. We must always be attentive--as you have implied 
to policy implications in changing circumstances, and be willing to 
make appropriate policy adjustments. Under the National Park Service's 
directives system, Director's Orders can serve as an efficient means 
for making specific adjustments to our policies.
    Question 46. Some people have expressed concern that the Park 
Service is bringing in more vendors and corporate sponsors to help with 
funding concerns. What are your feelings about the appropriate role of 
private companies in the Parks?
    Answer. I welcome philanthropic support from corporations as 
partners in the stewardship entrusted to our care. From its earliest 
days, the National Park Service has a history of partnership and 
cooperation with the private sector to bring services to visitors. The 
development of public accommodations, facilities, and services in parks 
are those that are necessary and appropriate for public use and 
enjoyment of the park unit in which they are located. Various parks are 
developing commercial services plans with public input, using best 
available science and other information in order to determine the 
appropriate level of visitor services to be provided by commercial 
services.
    Philanthropic support for programs and activities in our national 
parks is generally provided through donations to individual park 
friends groups or our national fundraising partner, the National Park 
Foundation. The acceptance of any donation to the NPS, regardless of 
the source, must maintain the integrity of our parks, the impartiality 
of the NPS, and public confidence in what we do.
    NPS Director's Order #21 on Donations and Fundraising provides 
specific guidance on the recognition of corporate donors. They may 
receive recognition for their contributions on the same basis as other 
donors. Corporate logos are not allowed on donor boards or walls. 
Consistent with NPS regulations and policies, no advertising or 
marketing may occur within park unit boundaries. Additionally, 
government ethics regulations prohibit the NPS from endorsing a 
company's products, services, or enterprise.
    Question 47. As you know, on August 25, 2006, the National Park 
Service celebrated its 90th anniversary. At that time Secretary 
Kempthorne announced a challenge to bring our Parks into better 
condition than before the centennial celebration in ten years. What 
ideas do you have to polish our nation's gems in the coming ten years?
    Answer. The Centennial Challenge will provide the vehicle to 
develop a blueprint for the renewal of national parks heading up to the 
next century. I will respond to President's special memorandum which 
directed the Secretary to identify signature projects and programs that 
will help prepare the national parks for another century of 
conservation, preservation and enjoyment, and that will continue the 
NPS legacy of leveraging philanthropic, partnership, and government 
investments.
    Question 48. In Colorado, we have 12 national park units, including 
Rocky Mountain National Park. As you know, parks across the country are 
struggling with budget cuts; closing visitor centers, not filling 
ranger positions, cutting back on interpretive programs. Will you be an 
advocate for increased funding for the National Park Service within the 
administration?
    Answer. Yes, I will vigorously advocate for NPS funding within the 
Administration.
    Question 49. I am pleased to see that you spent some time at Rocky 
Mountain National Park as an acting superintendent. What did you learn 
in that time about managing western Parks that differs from managing 
eastern Parks? At Rocky, the superintendent is currently taking 
remarkable steps to help limit the damage of air pollution on the Park. 
Will you be supportive of similar efforts of superintendents across the 
country to take actions to address specific, regional challenges that 
they face?
    Answer. My tenure at Rocky Mountain National Park was a very 
enriching experience where I gained a true appreciation of the western 
spirit. However, I have found during my 16 years in the National Park 
Service that there are more similarities than differences in managing 
eastern and western parks, particularly in the case of large national 
parks. For example, although some of the specific resources may be 
different,.many of the issues at Rocky Mountain National Park are 
similar to those at Shenandoah National Park or Acadia National Park--
including air quality, wildlife management, community involvement, 
water, and weather. Issues relating to facility maintenance, visitor 
services, and planning are universal among parks, from our smallest 
urban historic sites to the largest natural resource parks.
    Having had experience at so many different parks, I recognize that 
some parks have issues that are unique to the individual park or to the 
region where they are located. If confirmed, I will certainly support 
efforts of superintendents to take actions to address whatever specific 
challenges they face.
    Question 50. The Administration testified in support of my Rocky 
Mountain National Park wilderness bill (S. 1510). If confirmed, I trust 
I can count on your support?
    Answer. As you note, the Department testified earlier this year in 
support of S. 1510, and I support that position.

     Responses of Mary A. Bomar to Questions From Senator Menendez

    Question 51. National Park Service is in the process of finalizing 
its report on whether to add the Great Falls Historic District in 
Paterson, New Jersey, as a unit of the National Park System. I have 
weighed in before with my strong support for the creation of the Great 
Falls National Historic Park, which is also enthusiastically supported 
by the entire bipartisan New Jersey congressional delegation, our 
governor, and the National Parks Conservation Association. I have been 
told that the study report should be out by the end of September 2006. 
Is that still the timeline?
    Answer. The Special Resource Study on the Great Falls Historic 
District is scheduled to be released by the end of October. A 60-day 
public comment period will follow the release of the study.
    Question 52. Is the nominee aware that the State of New Jersey is 
going to be providing upwards of 10 million dollars to help preserve 
the site?
    Answer. I am aware that the Governor of New Jersey designated the 
Great Falls State Park as one of three urban state parks in October 
2004 and the State has pledged $10 million for its development. I 
applaud the State of New Jersey for this initiative and look forward to 
a continuation of our productive partnership with the State and the 
City of Paterson in preserving the resources of this special place in 
the history of American industrial development.
    Question 53. Given the nominee's familiarity with urban parks as a 
result of her experience as superintendent of Independence National 
Historic Park, is the nominee aware of the spectacular opportunity that 
a park in Paterson would have for connecting millions of people to the 
national park system and our country's heritage?
    Answer. One of the great benefits of being in a leadership position 
in the Northeast Region of the National Park Service is the opportunity 
to participate in the administration of important parks in the National 
Park System that serve urban populations and tell the stories of the 
early history of our Nation. In New Jersey, particularly, we have a 
unique mixture of recreational and cultural units of the National Park 
System including Gateway National Recreation Area, Delaware Water Gap 
National Recreation Area, Edison National Historic Site, and Morristown 
National Historical Park. We also have two affiliated areas that 
celebrate New Jersey's natural wonders; the Pinelands National Reserve 
comprising 22 percent of the State's land area and the New Jersey 
Coastal Heritage Trail. I believe that our continuing partnership with 
the City of Paterson will enable many visitors within the region to 
fully appreciate the important history and resources of Paterson's 
Great Falls Historic District.
    Question 54. I understand the National Park Service is in the 
process of re-bidding the concession for the Statue of Liberty and 
Ellis Island Ferries. Could you update me as to where we are in that 
process?
    Answer. We are working on an expedited prospectus development 
schedule that will have the prospectus for the new ferry service 
contract released on December 29, 2006. We just completed the project 
development phase, which is a major milestone in our plan to release 
the prospectus for the new ferry service.
    Question 55. Could you clarify what is meant as an ``add-on'' to an 
NPS concession bid documents? I understand these to be potential 
services or elements of a concession that could be provided to NPS as 
part of an eventual concession agreement. Can you tell me how these 
``add-ons'' are defined?
    Answer. NPS concession contracts generally allow for additional 
``similar services'' to be added to a concession contract after the 
issuance of that contract. These services must be consistent with the 
original intent of the contract.
    Question 56. Have you solicited any ideas from the public, or from 
local groups with an interest in water transportation in the harbor, 
about any potential ``add-ons'' to the Statue of Liberty ferry 
concession?
    Answer. General Management Plans are being undertaken for Governors 
Island National Monument, and the Statue of Liberty National Monument 
and Ellis Island. These involve an extensive civic engagement process. 
Any public comments and suggestions about transportation or ferry 
service will be considered in the development of the final GMPs and in 
the development of the prospectus and commercial use authorizations.
    Question 57. If ferry service to Governors Island, Sandy Hook, or 
other NPS sites in and around New York Harbor are part of the expressed 
NPS vision as embedded in the National Parks of New York Harbor 
initiative, how can we make sure this concession bid that NPS is 
currently developing explicitly communicates this desire, and this 
possibility to the potential operators?
    Answer. Enhancing waterborne transportation to Gateway National 
Recreation Area units and Governors Island National Monument is a 
primary focus of the National Parks of New York Harbor (NPNH) 
collaboration. The NPNH business development staff is currently working 
directly with New York City leadership to initiate market and 
transportation studies focused on developing new uses of harbor 
destinations supported by water access. In addition, the NPNH 
Conservancy has obtained donated funding to develop a transportation 
strategy that links the inner and outer portions of New York Harbor 
with a special emphasis on Gateway National Recreation Area sites. This 
work will be combined with new leasing and concessions opportunities 
presently under consideration at selected sites to help make ferry 
service viable.
    Question 58. It has been reported that the National Park Service 
has been testing new types of ferries that use more sustainable fueling 
systems in the Golden Gate area, and that two of these ferries are 
scheduled to be operating around Alcatraz by 2008. Given that the New 
York / New Jersey metropolitan area is also a non-attainment zone for a 
number of air pollutants, is the NPS looking at these clean ferry 
options for the New York Harbor ferry concession? Has any thought been 
given to including this as an ``add-on'' to the ferry concession bid?
    Answer. The National Park Service is committed to providing visitor 
services in the most environmentally sustainable manner possible. NPS 
will explore the potential for any additional environmentally 
sustainable improvements to the existing equipment as we develop the 
prospectus. We will continue this practice at the Statue of Liberty and 
Ellis Island with regard to future transportation systems involving new 
equipment to serve our many visitors.
    Question 59. Save Ellis Island, Inc., as a partner to the NPS, has 
experienced repeated delays (in the form of long, unexplained silences) 
in receiving consideration and responses to materials submitted to the 
NPS according to their stated procedures. Save Ellis Island (SEI) has 
raised more than $32 million toward stabilization of the unrest red 
buildings, development of a master plan with alternatives, development 
and implementation of pilot educational and public programs connected 
to the island's historic themes, and various levels of restoration of 
three historic structures. In June 2003, the NPS released a Development 
Concept Plan for a 60-day comment period, which expired in August 2003. 
Since then, the NPS has refused to act on the plan or meet with Save 
Ellis Island, and I have been unable to get straights answers about the 
reasons for the delay. Would the nominee ensure that SEI receives 
timely and respectful consideration of its work to restore and 
adaptively reuse Ellis Island's 30 un-restored buildings? Will the 
nominee also commit to holding a meeting with Save Ellis Island within 
the first three months after her confirmation?
    Answer. Renovation of the southside of Ellis Island is a high 
priority for Secretary Kempthorne and for me. We value our partnership 
with Save Ellis Island, Inc., and the good work it has accomplished. We 
are developing a new general agreement for the partnership and will be 
conducting updated market and feasibility analyses in FY 07. The 
results of these analyses will enable us to determine whether we should 
proceed with the current plan or appropriate modifications. I have had 
the opportunity to visit with representatives of SEI and most assuredly 
would be pleased to meet with them again.
    Question 60. What steps would the nominee take to place 
consideration of the preferred Ellis Island reuse plan back in its 
appropriate regional office?
    Answer. Steps that are being undertaken for the reuse of historic 
buildings on the South Side of Ellis Island include the development of 
a new general agreement and updated marketing and feasibility studies. 
I believe these steps will permit the NPS to discuss the future 
development of South Ellis with Save Ellis Island, Inc. and Congress 
based on current and detailed information.
    Question 61. I have heard from some NPS partners that they feel 
their work is not being viewed or treated with respect. What steps will 
the Director take to restore the climate of mutual respect between the 
National Parks Service and its private partners?
    Answer. The NPS recognizes philanthropic and volunteer support as 
both a noble tradition of the national parks and a vital element of the 
Service's success. Some national parks exist only because motivated 
citizens contributed time, talent, and funds to create them. The NPS 
actively engages the help of friends groups, which raise funds for 
programs, services, and projects in national parks, and non-profit 
cooperating associations, which return profits from national park 
bookstores to support interpretive and educational programs, services, 
and materials.
    For example, the NPS actively engaged NPS friends groups and 
cooperating associations during the revision of Director's Order #21 on 
Donations and Fundraising. The NPS worked with the Friends Alliance (a 
consortium of NPS friends groups) and the Association of Partners for 
Public Lands throughout the revision of this policy document. 
Improvements included the recognition that each park and partner is 
unique and that one size does not fit all when working with partners. 
The revised Director's Order #21 was developed in response to input 
from our friends groups to provide needed flexibility in working with 
partners--from startup organizations to those with years of 
demonstrated success.
    In my travels throughout the Northeast Region, I met with many 
partners, and conveyed my personal appreciation for their efforts on 
behalf of our parks. If I am confirmed, I can assure you that the NPS 
will continue to be actively engaged in the work of partners, assisting 
them in meeting mutually agreed-upon goals and recognizing the value 
their work brings to the NPS and the American people. The NPS 
Partnership Office helps to facilitate the work of park friends groups 
and the National Park Foundation. I also know that each of our seven 
regional offices have Regional Partnership Coordinators who help to 
ensure partnership success. Training for NPS personnel, frequently done 
in league with our partners, will continue to build a culture of 
partnership in all fields and at all levels.
    Question 62. What is the nominee's opinion of public-private 
partnerships to support the needs of our national parks? Does she view 
them primarily as a way to create ``value-added'' programs and 
improvements to the parks or does she view them as a way to replace 
operating and maintenance funds now in such scarce supply?
    Answer. I believe that public-private partnerships are an important 
element of enhancing the programs of our national parks, a means of 
enriching services, and an important way to foster long-term 
stewardship for our national parks. The benefits of working in 
partnership often extend into the future, because many people who 
participate as partners connect more strongly with the parks and commit 
themselves to their long-term care.
    NPS policy specifically states that donations are used to enhance 
NPS programs and to help achieve excellence. Donations are not to be 
used as offsets to appropriated funds or to meet recurring operational 
requirements. The NPS appreciates the generosity of those who donate 
directly and those who work through authorized nonprofit organizations 
that raise funds for the benefit of the park units and programs.


</pre></body></html>
